<html>
<title> - H.R. 511, TO AMEND TITLE 18, UNITED STATES CODE, TO PROHIBIT THE IMPORTATION OF VARIOUS INJURIOUS SPECIES OF CONSTRICTOR SNAKES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
   H.R. 511, TO AMEND TITLE 18, UNITED STATES CODE, TO PROHIBIT THE 
    IMPORTATION OF VARIOUS INJURIOUS SPECIES OF CONSTRICTOR SNAKES

=======================================================================



                          LEGISLATIVE HEARING

                               before the

                  SUBCOMMITTEE ON FISHERIES, WILDLIFE,

                       OCEANS AND INSULAR AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES

                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                      Thursday, November 29, 2012

                               __________

                           Serial No. 112-131

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
77-021                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 Colleen W. Hanabusa, HI
Kristi L. Noem, SD                   Paul Tonko, NY
Steve Southerland, II, FL            Vacancy
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark E. Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON FISHERIES, WILDLIFE, OCEANS
                          AND INSULAR AFFAIRS

                       JOHN FLEMING, LA, Chairman
    GREGORIO KILILI CAMACHO SABLAN, CNMI, Ranking Democratic Member

Don Young, AK                        Eni F. H. Faleomavaega, AS
Robert J. Wittman, VA                Frank Pallone, Jr., NJ
Jeff Duncan, SC                      Madeleine Z. Bordallo, GU
Steve Southerland, II, FL            Pedro R. Pierluisi, PR
Bill Flores, TX                      Colleen W. Hanabusa, HI
Andy Harris, MD                      Dan Boren, OK
Jeffrey M. Landry, LA                Edward J. Markey, MA, ex officio
Jon Runyan, NJ
Doc Hastings, WA, ex officio

                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, November 29, 2012......................     1

Statement of Members:
    Fleming, Hon. John, a Representative in Congress from the 
      State of Louisiana.........................................     1
        Prepared statement of....................................     2
    Pierluisi, Hon. Pedro R., the Resident Commissioner in 
      Congress from Puerto Rico, Statement submitted for the 
      record.....................................................    50
    Sablan, Hon. Gregorio Kilili Camacho, a Delegate in Congress 
      from the Commonwealth of the Northern Mariana Islands......     3
        Prepared statement of....................................     5

Statement of Witnesses:
    Barr, Brady, Ph.D., Dangerous Encounters, National Geographic 
      Channel....................................................     6
        Prepared statement of....................................     8
    Heflick, Shawn K., ``The Python Hunters'', National 
      Geographic Channel.........................................    15
        Prepared statement of....................................    17
    Jenkins, Peter T., Executive Director, Center for Invasive 
      Species Prevention.........................................    23
        Prepared statement of....................................    25
        Response to questions submitted for the record...........    27
    Kostyack, John, Vice President, Wildlife Conservation, 
      National Wildlife Federation...............................     8
        Prepared statement of....................................    10
        Response to questions submitted for the record...........    14
    Rooney, Hon. Thomas J., a Representative in Congress from the 
      State of Florida, Statement submitted for the record.......    50
    Sutherland, Colette, The Snake Keeper, Inc., Spanish Fork, 
      Utah.......................................................    18
        Prepared statement of....................................    20
    Wyatt, Andrew, CEO and President, United States Association 
      of Reptile Keepers (USARK).................................    28
        Prepared statement of....................................    30
        Response to questions submitted for the record...........    32

Additional materials supplied:
    Kroeger, Timm, Ph.D., Senior Environmental Economist, The 
      Nature Conservancy, Letter submitted for the record........    51
    List of documents retained in the Committee's official files.    56
    U.S. Fish and Wildlife Service, U.S. Department of the 
      Interior, Statement submitted for the record...............    54
                                     



LEGISLATIVE HEARING ON H.R. 511, TO AMEND TITLE 18, UNITED STATES CODE, 
TO PROHIBIT THE IMPORTATION OF VARIOUS INJURIOUS SPECIES OF CONSTRICTOR 
                                SNAKES.

                              ----------                              


                      Thursday, November 29, 2012

                     U.S. House of Representatives

    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:30 a.m., in 
Room 1334, Longworth House Office Building, Hon. John Fleming 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Fleming, Southerland; Sablan, and 
Bordallo.
    Dr. Fleming. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum and our guests can have 
a seat.
    All right, good morning. Today we will hear testimony on 
H.R. 511, a bill introduced by the distinguished gentleman from 
Florida, Congressman Tom Rooney, to list nine species of 
constrictor snakes under the Lacey Act.

    STATEMENT OF THE HON. JOHN FLEMING, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Dr. Fleming. Let me say at the outset that I compliment my 
colleagues from the Florida delegation for their tireless 
commitment to restoring the Florida Everglades. But I have 
concerns that H.R. 511 will end up destroying hundreds of small 
businesses without providing any real benefit to the 
Everglades.
    By way of background, there are several key dates in this 
discussion. The first was June 23, 2006, when the South Florida 
Water Management District petitioned the Fish and Wildlife 
Service to list Burmese Pythons on the Lacey Act. The next 
important date was January 20, 2010, when the Secretary of the 
Interior proposed to administratively list nine species of 
constrictor snakes. Before announcing a decision, however, the 
State of Florida implemented a law as of July 1, 2010 
prohibiting the importation and personal possession of seven 
species of snakes, including Burmese Pythons.
    Finally, after an exhaustive analysis by the Fish and 
Wildlife Service and the U.S. Small Business Administration of 
more than 56,000 comments, the Secretary of the Interior 
announced on January 17th of this year that 4 of the 9 species, 
including the 2 species that have established populations in 
the Everglades would be treated as injurious wildlife. It is 
now a violation of Federal law to import and to move these four 
species in interstate commerce.
    Upon making the decision, Secretary Salazar noted that it 
was intended to strike a balance between economic and 
environmental concerns. We are now being asked in H.R. 511 to 
go far beyond the recommendations of the South Florida Water 
Management District, the State of Florida, and the Fish and 
Wildlife Service, by listing all nine species of constrictor 
snakes.
    It is important to remember that millions of Americans own 
and have legally acquired constrictor snakes. They weren't 
smuggled into this country. While some of these Americans are 
simply content to have a boa constrictor as a pet, many others 
have created small businesses which breed them, feed them, 
provide equipment for them, sell them at pet stores, promote 
them at trade shows, provide veterinary care for them, and 
other activities which contribute millions to our economy.
    According to an economic analysis undertaken by the 
Georgetown Economic Services, the boa constrictor, which was 
not listed by the Fish and Wildlife Service, accounts for 70 
percent of all imports, and 70 to 80 percent of all revenues 
generated by these 9 species. The Service estimated that the 
annual decrease in economic output of these snakes ranged from 
$42 million to $86.2 million.
    In addition, the House Committee on Oversight held a 
hearing on the proposed listing of nine species and concluded 
in their report that, over the first 10 years, combined loss 
could be between $505 million and $1.2 billion. A witness at 
the hearing, Mr. David Barker of Texas, an internationally 
recognized authority on constrictor snakes, stated that ``The 
misguided regulations will destroy an entire industry comprised 
almost exclusively of small and micro-businesses. In short, if 
this rule goes into effect, it will destroy my life's work and 
investments for no rational reason.''
    During the course of this hearing I hope to learn why the 
current Florida State law and recent Interior Department 
rulings seem, in some people's minds, insufficient in 
addressing the Everglades problem. More specifically, does H.R. 
511 protect current breeders, pet store owners, and small 
businesses who trade these species in Louisiana, Michigan, New 
York, and Washington State?
    [The prepared statement of Dr. Fleming follows:]

          Statement of The Honorable John Fleming, Chairman, 
    Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Good morning, today, we will hear testimony on H.R. 511, a bill 
introduced by the distinguished gentleman from Florida, Congressman Tom 
Rooney to list nine species of constrictor snakes under the Lacey Act.
    Let me say at the outset that I compliment my colleagues from the 
Florida delegation for their tireless commitment to restoring the 
Florida Everglades. But I have concerns that H.R. 511 will end up 
destroying hundreds of small businesses without providing any real 
benefit to the Everglades.
    By way of background, there are several key dates in this 
discussion. The first was on June 23, 2006, when the South Florida 
Water Management District petitioned the Fish and Wildlife Service to 
list Burmese pythons on the Lacey Act. The next important date was on 
January 20, 2010, when the Secretary of the Interior proposed to 
administratively list nine species of constrictor snakes.
    Before announcing a decision, however, the State of Florida 
implemented a law as of July 1, 2010, prohibiting the importation and 
personal possession of seven species of snakes including Burmese 
pythons.
    Finally, after an exhaustive analysis by the Fish and Wildlife 
Service and the U.S. Small Business Administration of more than 56,000 
comments, the Secretary of the Interior announced on January 17th of 
this year that four of the nine species--including the two species that 
have established populations in the Everglades--would be treated as 
``injurious wildlife.'' It is now a violation of federal law to import 
and to move these four species in interstate commerce. Upon making the 
decision, Secretary Salazar noted that it was intended to ``strike a 
balance'' between economic and environmental concerns.
    We are now being asked in H.R. 511 to go far beyond the 
recommendations of the South Florida Water Management District, the 
State of Florida and the Fish and Wildlife Service by listing all nine 
species of constrictor snakes.
    It is important to remember that millions of Americans own and have 
legally acquired constrictor snakes. They weren't smuggled into this 
country. While some of these Americans are simply content to have a Boa 
constrictor as a pet, many others have created small businesses which 
breed them, feed them, provide equipment for them, sell them at pet 
stores, promote them at trade shows, provide veterinary care for them 
and other activities which contribute millions to our economy.
    According to an economic analysis undertaken by the Georgetown 
Economic Services, the Boa constrictor, which was not listed by the 
Fish and Wildlife Service, ``Accounts for 70 percent of all imports and 
70 to 80 percent of all revenues generated by these nine species.'' The 
Service estimated that the annual decrease in economic output of these 
snakes ranged from $42 million to $86.2 million. In addition, the House 
Committee on Oversight held a hearing on the proposed listing of the 
nine species and concluded in their report that ``Over the first ten 
years, combined loss could be between $505 million and $1.2 billion''.
    A witness at that hearing, Mr. David Barker of Texas, an 
internationally recognized authority on constrictor snakes stated that 
``This misguided regulations will destroy an entire industry, comprised 
almost exclusively of small and micro businesses. In short, if this 
rule goes into effect, it will destroy my life's work and investments 
for no rational reason''.
    During the course of this hearing, I hope to learn why the current 
Florida state law and recent Interior Department ruling seem, in some 
people's minds, insufficient in addressing the Everglades problem. More 
specifically, does H.R. 511 protect current breeders, pet store owners 
and small businesses who trade these species in Louisiana, Michigan, 
New York and Washington State.
    I am pleased to recognize the distinguished ranking minority member 
for any statement he would like to make.
                                 ______
                                 
    Dr. Fleming. Before recognizing the distinguished Ranking 
Minority Member for any statement he would like to make, I 
would ask unanimous consent to submit for the record: a segment 
of a report issued by the Committee on Oversight and Government 
Reform on the Fish and Wildlife Services injurious species 
proposed rule; a letter written by the Small Business 
Administration's Office of Advocacy; an article entitled, 
``Environmental Temperatures, Physiology, and Behavior Limit: 
the Range Expansion of Invasive Burmese Pythons in Southeastern 
U.S.A.;'' an article from the Chicago Tribune; and a petition 
signed by more than 150 residents of the State of Washington in 
opposition to H.R. 511.
    [NOTE: The information submitted for the record by Dr. 
Fleming has been retained in the Committee's official files.]
    Dr. Fleming. I am now pleased to recognize Congressman 
Sablan, the gentleman from the Northern Marianas, and you are 
now recognized, sir, for 5 minutes.

 STATEMENT OF THE HON. GREGORIO SABLAN, A DELEGATE IN CONGRESS 
               FROM THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Mr. Chairman, and thank 
you for having this hearing today. And welcome to all our 
guests. Good morning.
    In my home, in the Northern Mariana Islands, the Brown Tree 
Snake is considered the number one threat to native wildlife--
natives excluding human beings at this time--but our Division 
of Fish and Wildlife had to create an entire program dedicated 
to preventing the introduction of this snake to our islands. 
While this initiative requires constant monitoring and control, 
it is necessary to protect our natural heritage and fragile 
ecosystems against the spread of the Brown Tree Snake.
    This invasive snake has also caused major economic and 
ecological damage on the Island of Guam, where it has hunted 
more than 75 percent of native bird and lizard species into 
extinction, and causes frequent power outages. Similarly, 
preliminary studies have linked the Burmese Python, a snake 
recently labeled and injurious species by the U.S. Fish and 
Wildlife Service, to declines in mammal populations in the 
Florida Everglades.
    The five large constrictor snakes considered by H.R. 511 
are similar to the Burmese Python. And, unlike the Brown Tree 
Snake, also pose a public safety threat, because of their 
ability to grow to lengths greater than 15 feet. Also, unlike 
the Brown Tree Snake, some constrictor snakes are popular pets. 
The trading in exotic constrictor snakes is widespread and 
helps support businesses that import, breed, and sell these and 
other reptiles.
    In considering legislation like H.R. 511, we need to pay 
careful attention to the balance between the marginal benefit 
of these few snake species to private businesses, and the huge 
potential cost to society of established constrictor snake 
populations in the wild. I understand that the snakes that are 
the subject of H.R. 511 could survive and create breeding 
populations in the wild if introduced to the Commonwealth of 
the Northern Mariana Islands, as well as other U.S. insular 
areas and part of the Southern United States.
    Since the major limiting factor in the survival and 
reproduction of these large snakes seems to be climate, it is 
likely that the amount of suitable habitat for them in the 
continental United States will expand with continued global 
warming. Tropical diseases like malaria and dengue fever 
already are gaining a foothold further and further north of the 
Equator. And there is no reason to assume tropical reptiles, 
especially adaptable predators like constrictor snakes, could 
not do the same.
    Finally, I am most concerned about the two amendments that 
the Judiciary Committee added to H.R. 511. The first would 
require that to be guilty of a Lacey Act violation related to 
any injurious species, not just these snakes--an individual 
would have to knowingly violate the Act. This requirement would 
severely hamper enforcement in general, but especially with 
respect to injurious species like zebra mussels that may be 
brought into the country, in ship ballast water, or by other 
similar means. We have had this debate on the Lacey Act in 
previous hearings.
    Changing the prohibition in the statute from a strict 
liability offense to a knowing offense would remove the 
incentive for shippers to take steps such as appropriately 
cleaning ballast water and the outside of ships to ensure they 
don't bring these injurious animals into the United States.
    The second amendment would exempt animal exhibitors, as 
defined by the U.S. Department of Agriculture, from the Lacey 
Act with respect to these snakes, even though USDA does not 
regulate reptiles. As we have seen before this year, when the 
Majority was forced to pull its proposed rewrite of the Lacey 
Act from the House Floor, American citizens and businesses do 
not support attempts to weaken the Lacey Act. And I hope that 
after learning that lesson last summer, this Committee will not 
support such attempts, either.
    With that, I look forward to hearing from our witnesses and 
learning more about this issue.
    [The prepared statement of Mr. Sablan follows:]

  Statement of The Honorable Gregorio Kilili Camacho Sablan, Ranking 
Member, Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs

    Thank you, Mr. Chairman and welcome to all our guests.
    In my home, the Commonwealth of the Northern Mariana Islands, the 
brown tree snake is considered the number one threat to native 
wildlife. Our Division of Fish and Wildlife has had to create an entire 
program dedicated to preventing the introduction of this snake to our 
islands. While this initiative requires constant monitoring and 
control, it is necessary to protect our natural heritage and fragile 
ecosystems against the spread of the brown tree snake.
    This invasive snake also has caused major economic and ecological 
damage on the island of Guam, where it has hunted more than 75 percent 
of native bird and lizard species into extinction, and causes frequent 
power outages. Similarly, preliminary studies have linked the Burmese 
python--a snake recently labeled an injurious species by the U.S. fish 
and wildlife service--to declines in mammal populations in the Florida 
everglades. The five large constrictor snakes considered by H.R. 511 
are similar to the Burmese python, and unlike the brown tree snake, 
also pose a public safety threat because of their ability to grow to 
lengths greater than 15 feet.
    Also unlike the brown tree snake, some constrictor snakes are 
popular pets. The trade in exotic constrictor snakes is widespread, and 
helps support businesses that import, breed, and sell these and other 
reptiles. In considering legislation like H.R. 511, we need to pay 
careful attention to the balance between the marginal benefit of these 
few snake species to private business, and the huge potential cost to 
society of established constrictor snake populations in the wild.
    I understand that the snakes that are the subject of H.R. 511 could 
survive and create breeding populations in the wild if introduced to 
the Commonwealth of the Northern Mariana Islands, as well as other U.S. 
insular areas, and parts of the Southern United States. This concerns 
me both as a representative of my constituents, and as the Ranking 
Member of this subcommittee. I am sure Chairman Fleming would also like 
to ensure that large constrictor snakes do not invade Louisiana.
    Since the major limiting factor in survival and reproduction of 
these large snakes seems to be climate, it is likely that the amount of 
suitable habitat for them in the continental United States will expand 
with continued global warming. Tropical diseases like malaria and 
Dengue (Den-GEE) fever already are gaining a foothold farther and 
farther north of the Equator, and there is no reason to assume tropical 
reptiles--especially adaptable, generalist predators like constrictor 
snakes--could not do the same.
    Finally, I am concerned about two amendments that the Judiciary 
Committee added to H.R. 511. The first would require that to be guilty 
of a Lacey Act violation related to ANY injurious species--not just 
these snakes--an individual would have to `knowingly' violate the Act. 
This requirement would severely hamper enforcement in general, but 
especially with respect to injurious species like zebra mussels that 
may be brought into the country in ship ballast water or by other 
similar means. Changing the prohibition in the statute from a strict 
liability offense to a knowing offense would remove the incentive for 
shippers to take steps, such as appropriately cleaning ballast water 
and the outside of ships, to ensure they don't bring these injurious 
animals into the United States.
    The second amendment would exempt animal `exhibitors' as defined by 
the U.S. Department of Agriculture (USDA), from the Lacey Act with 
respect to these snakes, even though USDA does not regulate reptiles. 
As we have seen before this year when the Majority was forced to pull 
its proposed rewrite of the Lacey Act from the House floor, American 
citizens and businesses do not support attempts to weaken the Lacey 
Act, and I hope that after learning that lesson last summer, this 
committee will not support such attempts either.
    With that, I look forward to hearing from our witnesses, and 
learning more about this issue.
                                 ______
                                 
    Mr. Sablan. But at this time, Mr. Chairman, I ask unanimous 
consent to enter into the record the following materials: 
testimony of the Humane Society of the United States, which 
includes documentation of over 240 dangerous incidents 
involving large constrictor snakes in 45 States; and testimony 
from the American Bird Conservancy supporting H.R. 511 as 
introduced by Mr. Rooney without the proposed amendments. And 
without objection, Mr. Chairman?
    Dr. Fleming. Without objection.
    [NOTE: The information submitted for the record by Mr. 
Sablan has been retained in the Committee's official files.]
    Mr. Sablan. Thank you very much. And I yield back my time.
    Dr. Fleming. I thank the gentleman. I thank my friend, the 
Ranking Member for the Minority.
    We will now hear from our witnesses. Like all witnesses, 
your written testimony will appear in full in the hearing 
record. So I ask that you keep your oral statements to 5 
minutes, as outlined in our invitation letter to you, and under 
Committee Rule 4(a).
    Our microphones are not automatic. So you will need to 
press the button. Also a common mistake that is made, we all 
make, is not being close enough to the microphone. So make sure 
you are close enough. Pull it to you, and you may have to shift 
microphones over to be heard well.
    We are now ready for our panel of public witnesses, which 
includes Dr. Brady Barr, the star of the National Geographic 
television show, ``Dangerous Encounters''; Mr. John Kostyack--
am I saying that correctly? OK, Vice President, National 
Wildlife Federation; Mr. Shawn Heflick, one of the stars of the 
television show, ``The Python Hunters''; Ms. Colette 
Sutherland, who is known as ``The Snake Keeper'' from Spanish 
Fork, Utah; Mr. Peter Jenkins, Executive Director, Center for 
Invasive Species Prevention; and Mr. Andrew Wyatt, the 
President, United States Association of Reptile Keepers.
    Your written testimony will appear in full in the hearing 
record, so I ask that you keep your oral statements to 5 
minutes.
    Now, we work on a light and time system. So when you begin 
your testimony, you will be under a green light. When the light 
turns yellow, you have a minute left. When it turns red, if you 
haven't completed your statement, please go ahead and wrap up. 
Otherwise, I will have to interrupt your statement. Your entire 
statement will be made part of the record, so you can rest 
assured of that.
    Let's see. I guess first up is Dr. Barr. You are now 
recognized, sir, for 5 minutes.

   STATEMENT OF BRADY BARR, PH.D., ``DANGEROUS ENCOUNTERS,'' 
                  NATIONAL GEOGRAPHIC CHANNEL

    Dr. Barr. Thank you. I would like to thank the Chair and 
the Committee for listening to me today.
    You know, for the past few years, myself, like many of us, 
saw many of the reports in the popular media, reports that I 
thought were pretty sensationalized, and finally decided I 
needed to contact USARC and offer up my expertise, because I 
really don't have any vested interest in this decision.
    I am National Geographic's Resident Herpetologist, a 
position I have held for the last 15 years. And I think there 
are two items that need to be considered in this situation, two 
controls, one that has been addressed, another that I haven't 
seen addressed.
    The first is climatic controls. These are tropical snakes 
that we are talking about. They are a long way from home. These 
snakes lack the biology and the physiology to survive low 
temperatures. And we are talking about temperatures that would 
be below 16 degrees Celsius. That is approximately 60 degrees 
Fahrenheit. And when these types of temperatures are 
experienced by these snakes, they have trouble digesting prey, 
they have troubling acquiring prey, they have trouble moving, 
avoiding predation. And the bottom line is they have trouble 
surviving at low temperatures. These animals are ectotherms, 
meaning that they cannot internally control their body 
temperature. They have to rely on the environment for their 
body temperature.
    So, I think, in summary, due to the climatic controls, when 
it gets cold, these snakes die. And that will prevent any 
movement northward along the Eastern Seaboard of the U.S.
    The second important control that I think that should be 
considered is a biological control, and I haven't seen this 
issue addressed. In the Everglades, or in the State of Florida, 
there is estimated to be over 2 million American alligators. 
Alligators are a keystone species in the Everglades. They are 
an apex predator. They are one of the largest non-marine 
predators on the planet.
    And in saying that, alligators found in the Everglades are 
undersized. They grow very slowly. They reach sexual maturity 
later than populations elsewhere. To a large degree, it has 
been surmised that owes to a poorer quality diet found in the 
Everglades. The Everglades is a tough place to live, if you are 
a large predator. It is an ecosystem characterized by a 
dramatic dry season and wet season. There aren't a lot of prey 
items in the Everglades for top predators to utilize.
    In the 1990s, 1992 to 1997, I undertook the most 
comprehensive diet study of American alligators to date, and in 
Everglades National Park I captured and flushed the stomachs of 
over 2,000 alligators and found the top prey item to be snakes. 
Essentially, alligators are surviving on snakes in the 
Everglades. Fifty-five percent of recovered food mass is snake. 
These animals are making an existence, almost solely, on 
snakes. And this is in an environment which, as I said, is not 
wealthy, in terms of suitable prey for large predators, such as 
alligators. So, I think that any inclusion of exotic snakes, 
the top prey item of alligators, will be utilized by that apex 
predator.
    So, in conclusion, I feel that climatic controls and 
biological controls in predators on these exotic snakes--and 
alligators is just one example of many found in the 
Everglades--will prevent movement of these snakes northward, 
and thereby--doesn't merit inclusion in the Lacey Act of these 
species. Thank you.
    [The prepared statement of Dr. Barr follows:]

        Statement of Brady Barr, Ph.D., Resident Herpetologist, 
                      National Geographic Society

    Good morning and thank you for the opportunity to speak before you 
today. My name is Brady Barr and I am the Resident Herpetologist at the 
National Geographic Society.
    I was compelled to speak out on this issue on a very personal 
basis. Over the past few years as I saw more and more erroneous and 
sensationalized stories in popular media concerning pythons in the 
southern Everglades, I became frustrated knowing the public was being 
grossly misinformed. I subsequently reached out to the U.S. Association 
of Reptile Keepers (USARK) to offer what expertise I might lend to the 
decision making process and to this hearing today.
    I feel that there are two important points that need to be 
considered in reference to large exotic snakes in the Southern 
Everglades: 1. climatic controls, 2. biological controls. The snake 
species referenced in this hearing are native to tropical regions of 
the planet, whereas the Southern Everglades is a sub-tropical climate 
characterized by seasonal temperature fluctuations and more extremes. 
These tropical snakes do not possess the behavior and physiology to 
tolerate cold temperatures. Low temperatures (below 15 degrees C.) 
result in these snakes having problems digesting prey, acquiring prey, 
avoiding predation, moving, essentially surviving. Furthermore, these 
snakes lack the innate behavior to seek refugia at the onset of cold 
weather conditions, resulting in quick death or a compromised immune 
system in which the snake ultimately succumbs. Climate data reveal that 
temperatures found in Southern Florida simply are not conducive to the 
long term survival of large tropical snakes. When it gets cold these 
snakes die.
    Concerning the second point, biological controls; I offer the 
example of Alligators--a top predator and keystone species in the 
Everglades, and one of the largest non-marine predators on the planet. 
However, populations in the Everglades grow more slowly, are 
undersized, and take longer to reach sexual maturity, than populations 
elsewhere. These conditions are likely due in part to a lower food base 
and poorer quality diet found in the Everglades. The Everglades is 
tough place to live, especially for large predators. The Everglades in 
many ways is analogous to a desert, largely because it is a bio mass 
poor ecosystem. In this respect, alligators have a difficult time 
finding large prey to consume. I conducted the most comprehensive 
alligator diet study to date, in Everglades National Park from 1992-
1997. Flushing the stomachs of over 2,000 alligators, and in excess of 
600 adults, revealed that snakes are by far the most important prey by 
mass. Fifty-five percent of consumed prey mass by adult alligators is 
snakes, that is over half of everything alligators eat in the 
Everglades is snake. In a prey deficient ecosystem alligators are 
essentially surviving on snakes in the Everglades. It can logically be 
inferred that inclusion of a top prey item (snakes) into an already 
prey deficient system, will result in predation on the introduced 
exotic species by the alligators of the Everglades, making them not 
only a keystone species, but also a natural biological control to 
introduced exotic snakes.
    In summary, the climatic controls (low temperatures experienced in 
Southern Florida) and biological controls, chiefly alligators, among 
numerous snake predators in the Everglades, will control any population 
of large exotic snakes in southern Florida, and thereby does not 
warrant the inclusion of the nine snake species to the Injurious 
Wildlife list of the Lacey Act.
                                 ______
                                 
    Dr. Fleming. OK. Thank you, Dr. Barr. And thank you for 
your testimony.
    And, Mr. Kostyack, you are next up, sir. You are recognized 
for 5 minutes.

 STATEMENT OF JOHN KOSTYACK, VICE PRESIDENT, NATIONAL WILDLIFE 
                           FEDERATION

    Mr. Kostyack. Good morning, and thank you, Chairman 
Fleming. Thanks for the opportunity to testify today. The 
National Wildlife Federation is the Nation's largest 
conservation, education, and advocacy organization. We have 
over 4 million members and supporters. We have 48 State and 
territorial affiliates. And we are passionate about conserving 
wildlife and habitat, and addressing the chief threats to 
wildlife and habitat. And the science has shown that invasive 
species are, indeed, one of the chief threats.
    We would like to thank Congressman Rooney for introducing 
H.R. 511. We think banning importation and interstate trade of 
those nine large constrictor snakes is the right thing to do. 
All nine were found to be injurious by the Fish and Wildlife 
Service. The Fish and Wildlife Service decision to take five of 
them off the list was actually a decision made by OMB, based 
upon non-scientific grounds. And USGS also has supported that 
finding.
    We see the large constrictor snake problem as a major 
threat to wildlife. I would like to talk to you further about 
the benefits of the bill as introduced, but I would like to 
flag the two harmful amendments that were brought on to the 
bill in the House Judiciary Committee. They both essentially 
negate the value of the bill, as introduced, unfortunately.
    The first one, which allows unregulated exhibitors of 
snakes to evade the Lacey Act prohibitions essentially guts the 
original law. And the second amendment is even more damaging, 
because it goes well beyond injurious snakes to all injurious 
species listed as injurious, and essentially creates a burden 
of proof that makes the law virtually impossible to enforce, 
and therefore eliminates its deterrent effect. And so that 
would be a major setback to our most important law for 
controlling and preventing the introduction of invasive 
species.
    So, turning to H.R. 511, I would like to just list 3 chief 
benefits of the law, as introduced.
    First of all, the wildlife benefits. This law really is a 
crucial step to protecting this Nation's rich natural heritage, 
and not just Florida's. We have seen the Burmese Python 
invading Florida. And this was brought in by the pet industry 
and released into the wild and now numbers somewhere between 
30,000 and 100,000 snakes. And they are now so well established 
that many scientists are questioning whether eradication will 
ever happen.
    More than 25 different bird species, including several 
endangered species, have been found in the digestive tracts of 
the snakes. And now this recent study has shown that the Python 
is eliminating vast portions of the native mammals of that 
region. That level of ecosystem disruption is a major threat to 
Everglades restoration, a project in which State and Federal 
taxpayers have invested billions of dollars.
    The scientific community has sounded the alarm about these 
nine large constrictor snakes. They have shown that they could 
expand their range well beyond South Florida into the southern 
portion of the Continental U.S., as well as the Island 
Territories. Scientists have already observed that the python 
populations have rebounded from cold snaps well below 16 degree 
Centigrade, defying all the predictions we have heard about 
die-offs due to cold snaps. Louisiana, the home of Chairman 
Fleming, appears to have, according to these reports, a climate 
that is well suited for the establishment of large constrictor 
snakes.
    Now, of course, all the projections we have seen--and, by 
the way, you hear lots of disputes about climate change science 
in the media, but the scientific community is only disagreeing 
to the extent of degree, and not whether there is a fact of 
warming. A warming trend happening in this country is not 
disputed in the scientific community. A warming trend is well 
underway, and that will expand the range of large constrictor 
snakes.
    I would like to talk briefly about the economic benefits. 
My organization is comprised of hunters and anglers, wildlife 
watchers. And we are deeply concerned about the tourism and 
recreation industry, and the impacts of the arrival of large 
constrictor snakes. No one knows, to this day, how badly 
Florida has already been hit, how many families are not willing 
to go into the Everglades and spend money, due to the arrival 
of these snakes, how many hunters have lost a prey base. The 
list goes on. It is something that ought to be considered by 
the Members of this Committee.
    And, finally, human safety. We know 17 lives have already 
been lost due to large constrictor snakes in this country. This 
Lacey Act protection is essential. There is no reason for one 
single additional loss of life to continue when Congress has 
the power to reign in invasive species.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Kostyack follows:]

              Statement of John Kostyack, Vice President, 
          Wildlife Conservation, National Wildlife Federation

    Chairman Fleming, Ranking Member Sablan, members of the 
Subcommittee, thank you for the opportunity to be here today. National 
Wildlife Federation is a non-partisan, non-profit organization. Our 
mission is to inspire Americans to protect wildlife for our children's 
future. National Wildlife Federation is comprised of 48 state and 
territorial affiliates and more than 4 million members and supporters. 
Our members include hunters, anglers, backyard gardeners, birdwatchers 
and many other outdoor enthusiasts from throughout the nation.
    Conserving wildlife for our children's future has been the mission 
of the National Wildlife Federation since our inception in 1936. Time 
and again, threats to wildlife have unified diverse people from across 
our nation to take action in the interest of conserving the nation's 
rich wildlife heritage. Through voluntary collaboration and effective 
conservation laws, the people of this nation have saved many species 
from extinction, restored many game and fish wildlife species, and 
preserved our outdoor heritage. We appreciate the opportunity to 
testify today on a bill that deals with the critical issue of 
preventing the spread of large constrictor snakes, which are already 
wreaking havoc on wildlife and ecosystems.
    On behalf of the National Wildlife Federation, I want to thank 
Congressman Rooney for introducing H.R. 511, the bill to prohibit the 
importation and inter-state transport of all nine of the large 
constrictor snakes initially proposed for the injurious species list by 
the U.S. Fish and Wildlife Service (FWS). Banning the importation of 
these non-native species is absolutely critical to reducing the costs 
to the taxpayer of controlling these constrictors, which have already 
risen into the millions of dollars per year. Earlier this year the FWS 
placed four of the nine species on the injurious wildlife species list, 
but dropped the five other harmful species that it and the United 
States Geological Survey had previously recommended for inclusion in 
the importation ban. We were disappointed that all nine species were 
not placed on the injurious list, which is why we applaud Congressman 
Rooney and the other cosponsors of H.R. 511 for their leadership.
    H.R. 511 in its original form had strong bipartisan support in 
Congress as well as backing from a wide variety of conservation and 
humane groups. Unfortunately, NWF was dismayed to see two amendments 
made to H.R. 511 in a markup by the House Judiciary Committee. NWF will 
oppose the bill until both amendments are removed.
    The first of those harmful amendments would allow thousands of 
unregulated exhibitors of snakes, including many roadside zoos and 
circuses, to import and trade the nine constrictor snakes without a 
Lacey Act permit. This would virtually eliminate the effectiveness of 
listing the snakes. The second of those amendments says that to commit 
a criminal violation for the importation of an injurious animal, the 
import must violate the law ``knowingly.'' This change in the law would 
apply to all Lacey Act injurious species listings, not just the snake 
species in this bill. Imposing such a high burden of proof would 
greatly hinder prosecution of people who illegally import or make 
interstate shipments of injurious species, and it would greatly reduce 
the deterrent effect of the law. Ignorance is not a valid excuse for 
violating a law and should not be the basis for avoiding Lacey Act 
prosecution.
    Full application of the Lacey Act to these nine large constrictor 
snakes is warranted given the well-documented economic costs and 
impacts of constrictor invasions to wildlife and human communities in 
this country. In south Florida, three species have already invaded--the 
boa constrictor, the northern African rock python and Burmese python. 
Burmese pythons, imported from Southeast Asia as pets and then 
illegally released in the wild, are reproducing and thriving in the 
Everglades and other south Florida wetlands. Estimated at between 
30,000 and 100,000 in number, this snake is considered a threat both to 
the restoration of the Everglades and to human safety (FWS 2012). This 
invasion, which is costing the taxpayers enormous sums to manage, may 
be irreversible. It is a textbook example of why the most cost-
effective strategy for addressing invasive species is to prevent their 
importation.
WILDLIFE IMPACTS
    Giant constrictors are top predators in the south Florida 
ecosystem. According to the U.S. Geological Survey (USGS), they are 
voracious and indiscriminate consumers of native wildlife and can grow 
rapidly to more than 20 feet in length and 250 lbs in weight. They are 
particularly threatening to bird and mammal populations. For example, 
more than 25 different bird species, including endangered species, have 
been found in the digestive tracts of pythons in the Everglades (FWS 
2012). They can live in many kinds of habitats, are tolerant of 
urbanization, achieve high population densities and produce many 
offspring. They serve as potential hosts for parasites and diseases 
that threaten wildlife and human health.
    Since the FWS listing, new science has confirmed the devastating 
impacts the python invasion has had on native wildlife. The findings in 
the 2012 study by Dorcas et al. titled `Severe mammal declines coincide 
with proliferation of invasive Burmese pythons in Everglades National 
Park' were highly distressing for NWF and anyone concerned about native 
wildlife in South Florida. This groundbreaking study shows that these 
non-native snakes are top predators that appear to be eliminating vast 
portions of wild mammals in that region. This ecosystem disruption 
could easily expand beyond southern Florida, especially given the 
warming of the climate that is underway.
    For additional evidence of the damage to native wildlife 
populations caused by invasive snake species, one need not look further 
than the U.S. territories. The brown tree snake invasion in Guam is 
particularly notorious: most native Guam forest bird species were 
virtually extinct by the time the FWS listed these species as 
threatened or endangered in 1984, less than 50 years after the tree 
snake was first introduced (USGS). We know that boa constrictors 
already are invading Puerto Rico and threatening that island's native 
wildlife (Reed and Rodda 2009).
ECONOMIC IMPACTS
    As noted above, the cost to taxpayers for controlling and 
eradicating large constrictor snakes is well into the millions of 
dollars. The FWS alone has spent more than $6 million since 2005 
developing and applying solutions to the invasions of Burmese pythons 
and other constrictor snakes in Florida. Pythons also jeopardize 
billions in federal, state and local investments in environmental 
restoration. By causing such a massive disruption of the Everglades 
ecosystem, the pythons are undoing years of federal and state 
investments there. Investments in endangered species recovery are 
likewise threatened. For example, from 1999 to 2009, Federal and State 
agencies spent $1.4 million on Key Largo woodrat recovery and $101.2 
million on wood stork recovery--two endangered species that have been 
found in the bellies of Burmese pythons. Taxpayers are being forced to 
pay for the growing expense of controlling and eradicating large 
constrictor snakes in south Florida. Congress should at least shut the 
spigot that sends yet even more snakes into their communities.
    The economic costs of constrictor snake invasions to our tourism 
and outdoor recreation economy could far exceed the cost of control 
measures by wildlife agencies. According to the FWS 2011 National 
Survey of Fishing, Hunting, and Wildlife-Associated Recreation, 91.1 
million U.S. residents fished, hunted, or watched wildlife in 2011 
alone. They spent over $145 billion in the process, contributing to 
millions of jobs in industries and businesses that support wildlife-
related recreation. Funds generated by licenses and taxes on hunting 
and fishing equipment pay for many conservation efforts in this 
country, and wildlife-related recreation is a proud American tradition. 
As the Burmese python devastates south Florida wildlife, the tourism 
and recreation economy in that region suffers. Slowing the spread of 
the constrictor snake invasion by banning further importation and 
inter-state trade will be essential for protecting the tourism and 
recreation-based economies of other regions.
    Florida alone hosts almost 6 million participants in wildlife-
associated recreation each year. As game mammal populations decline, 
hunting opportunities inevitably fall. How many hunters will reduce 
their activity as a result of this decline? As bird species are 
swallowed up by increasing numbers of large constrictor snakes, how 
many birders will reduce travel to Florida and reduce spending on 
hotels, equipment, and food? Will tourists avoid taking trips to the 
Everglades or other areas invaded by snakes because of safety concerns? 
These are questions that leaders from south Texas, Louisiana, Georgia, 
Mississippi, Alabama, Hawaii and beyond will need to answer as they 
work to protect their robust recreation and tourism economies. All it 
would take is a few pet constrictors to grow larger than their owners 
can manage, be let out into the wild, and manage to breed. The reckless 
trade in large constrictors is not just a Florida problem--it is a 
national problem.
    Projections of high economic losses to the pet trade as a result of 
a prohibition on importation and interstate trade of nine large 
constrictors have been discredited in economic analyses by the FWS, the 
Congressional Budget Office and Timm Kroeger, Ph.D., an economist with 
The Nature Conservancy.
    H.R. 511 will not put the reptilian pet trade out of business. 
These nine species are just one part of the pet trade and presumably 
most of those who want to buy snakes will simply shift toward species 
that are not covered by the Lacey Act and do not disrupt our 
environment.
THREATS TO HUMAN SAFETY
    The costs of allowing importation and inter-state trade in the nine 
non-native large constrictor species include loss of human life and 
serious injury. According to the Humane Society, seventeen people have 
died from large constrictor snake related incidents in the United 
States since 1978. Scores of adults and children have been injured 
during attacks by large constrictors. These snakes are clearly 
injurious by any reasonable measure.
POTENTIAL FOR RANGE EXPANSION
    As noted earlier, the potential of large constrictor snakes to 
expand their existing habitat range in the lower 48 states as well as 
island territories is well-supported by the science. Already we are 
observing Burmese python populations in the Everglades rebounding from 
cold winters and defying predictions of their die-off. Research from 
the USGS and others have indicated that well-documented shifts in 
climate will help these cold-blooded creatures thrive farther and 
farther north, affecting more states and increasing their ecological 
damage and costs to taxpayers (Reed et al, 2009, 2012).
    For example, the state of Louisiana appears to be prime habitat for 
future invasions by imported large constrictor snakes. USGS research 
indicates that even Chairman Fleming's northwest Louisiana District is 
a suitable climate match for giant constrictors. Prohibiting the 
importation and inter-state trade of all nine constrictor snakes would 
greatly reduce the odds of an invasion on par with the crisis in south 
Florida.
    A recent study published in Integrative Zoology attempts to 
contradict USGS research on python climate projections, claiming that 
it is unlikely pythons can survive north of the Everglades. 
Unfortunately, the conclusions in this new study `Environmental, 
physiology and behavior limit the range expansion of invasive Burmese 
pythons in southeastern USA' (Jacobson et al. 2012) are based on 
several flawed premises and no new information on python behavior or 
cold tolerance. In fact, the authors ignore a fundamental principle of 
reptilian ecology--the ability of reptiles to behaviorally regulate 
their body temperatures well above air temperature. Attached to this 
testimony are comments on the study by several of the leading 
researchers on this topic, elaborating on this and other basic flaws in 
the Jacobsen et al. methodologies.
PREVENTING NON-NATIVE SPECIES INVASIONS
    The nine large constrictor snakes proposed to be listed as 
injurious by H.R. 511 are just some of the examples of a massive 
invasive species problem in the United States and across the world. The 
total U.S. cost attributed to invasive animals and associated animal 
diseases is estimated to be as much as $35 billion per year, with one 
study estimating the effects and control of nonnative invasive species 
at about $120 billion (Pimentel 2005). The snakes listing rule by the 
FWS took 6 years to finalize--far too long to effectively prevent the 
establishment of Burmese pythons and other species in south Florida. It 
illustrates that the Lacey Act injurious species listing section--which 
is 112 years old--is inadequate. This current process, in which FWS 
acts largely in reactive fashion, is in need of an upgrade. The House 
and Senate have both introduced legislation that would vastly improve 
the current process. In the House, NWF has strongly endorsed H.R. 5864, 
the Invasive Fish and Wildlife Prevention Act of 2012, which has 30 
bipartisan cosponsors. This bill would reform the injurious species 
listing process, making it faster and more effective, and bring it into 
the modern age. Prevention of harmful exotic species through screening 
and risk assessment is of great importance to limiting damages posed by 
invasives, particularly when protecting areas from invasive reptiles. 
We urge the Committee to take up H.R. 5864 or its counterpart in the 
next Congress and to move it forward for passage.
CONCLUSION
    National Wildlife Federation was pleased that FWS prohibited the 
importation and inter-state transport of the Burmese python, yellow 
anaconda, northern African rock python and southern African rock 
python. However, the job of addressing large constrictor snakes is not 
finished, and it is crucial that the five remaining large constrictor 
species targeted by FWS and USGS be listed as injurious wildlife as 
well.
    H.R. 511, as originally introduced, finishes the job by making sure 
all nine species are listed: until then, the reticulated python, 
DeSchauenee's anaconda, green anaconda, Beni anaconda, and boa 
constrictor will continue to audition for reoccurring roles in the 
invasive species assault on America's ecosystems. Our nation's 
wildlife, human safety and tourism and recreation economy depend on 
taking action to prevent invasions of exotic animal species. NWF calls 
on the committee to remove the two harmful weakening amendments adopted 
by the Judiciary committee and pass the original H.R. 511 language.
ATTACHMENT 1

 Comments on Jacobson et al. ``Environmental temperatures, physiology, 
 and behavior limit the range expansion of invasive Burmese pythons in 
                           Southeastern USA''

                           November 27, 2012

    In this paper, the authors ask ``Do Burmese pythons currently 
inhabiting the Everglades possess the ecological, physiological, and 
behavioral traits to survive in more temperate environments?'' The only 
new data presented in this paper are summaries of ambient air 
temperatures in Florida and South Carolina. The authors interpret these 
temperature data as evidence that pythons cannot expand beyond South 
Florida. Unfortunately, their conclusions are based on several flawed 
premises and no new information on python behavior or cold tolerance. 
The study does not contradict the approaches or conclusions of previous 
studies (e.g., Rodda et al. 2009) and yields little new insight into 
factors that may limit range expansion in this invasive species.
    In this paper, Jacobson et al. develop a rationale based on 
environmental (maximum and minimum air) temperatures from the Southeast 
and the limits those temperatures might pose to python survival and 
feeding. They conclude that pythons lack the physiological and 
behavioral abilities to survive in climates more temperate than 
southern Florida, where they are now thriving. Fundamental to their 
argument is that air temperature is an accurate indicator of body 
temperatures experienced by free-ranging snakes. Unfortunately, this is 
not the case. The ability of reptiles to behaviorally regulate their 
body temperatures well above air temperature is recognized as a 
fundamental element of reptilian ecology and a well-documented 
phenomenon that has been studied for over 60 years. Nearly all snakes, 
including pythons, are able to substantially warm their body 
temperatures above ambient temperature by basking in the sun or seeking 
refuge underground. In fact, our recent study in South Carolina (see 
Dorcas et al. 2011) demonstrated that pythons were able to achieve body 
temperatures >20C, even when maximum air temperatures were <15C and 
nightly lows dropped below freezing.
    Moreover, although this study does not present any new data on 
python behavior or physiology, the thresholds they use for digestion 
and survival are not substantially different from those of most native 
North American snakes. For example, like pythons, most snakes require 
body temperatures above 16C to digest their prey and cannot withstand 
freezing. Thus, based on the rationale described in this study, we 
would conclude that most of the continental United States is unsuitable 
for snakes in general. Of course, this is not the case. Dozens of snake 
species thrive in temperate climates by using behavior (basking, 
hibernation, etc.) to maintain appropriate body temperatures, and this 
study provides no new evidence addressing python's abilities to 
thermoregulate. Jacobson et al. interpret the results of recent python 
deaths during exceptionally cold weather in the Everglades, 
Gainesville, Florida, and Aiken, South Carolina as evidence that 
pythons ``seemingly lack the behaviors to seek refuge from, and the 
physiology to tolerate, cold temperatures'' but fail to recognize that 
some pythons behaved appropriately, took refuge underground or in 
shelters, and survived short-term freezes in all three of these cases.
    This paper was written primarily as a rebuttal to a paper by Rodda 
et al. (2009) that showed a suitable climate match for Burmese pythons 
throughout much of the southern United States. There is nothing in the 
Jacobson et al. paper that undermines the original approaches or 
conclusions of Rodda et al. (2009) and the editors of the journal were 
remiss by not inviting Rodda or his colleagues to review this 
manuscript before it was published. There are many factors, including 
temperature, that may limit the distribution of pythons in the United 
States, but the Jacobson et al. (2012) paper adds little new insight 
into what those limitations might be.
Michael E. Dorcas, Department of Biology, Davidson College
John D. Willson, Department of Biology, University of Arkansas
Christina Romagosa, Center for Forest Sustainability, School of 
Forestry and Wildlife Sciences, Auburn University
                                 ______
                                 

  Response to questions submitted for the record by John F. Kostyack, 
                      National Wildlife Federation

        1.  How would the USDA regulate exhibitors under this 
        provision?
        2.  How does the pet trade, and specifically interstate 
        commerce related to the pet trade, contribute to the 
        establishment of invasive constrictor snakes?
                a.  Can you site a specific study illustrating this?
        3.  How much have U.S. taxpayers spent on eradicating these 
        invasive snakes.
        4.  We've seen some studies alleging that invasive constrictor 
        snakes cannot survive outside of the Everglades. Can you 
        provide evidence of other places that these snakes could 
        establish breeding populations, the probability of that 
        happening, and how this could occur (through hibernation, 
        escape from homes, ect.)?
        5.  Arguments have been made that native species such as the 
        white-tail deer are more of a threat to human safety than these 
        invasive snakes. However, in the context of invasive species 
        only, can you cite evidence that any other species poses as 
        much of a threat to human safety as these snakes?
        6.  Imperiled species are under significant threat in the 
        Everglades already--how are invasive constrictors contributing? 
        How can we expect this to play out in other areas?
        7.  Would you say science is settled on the issues of whether 
        snakes can establish breeding populations outside the 
        Everglades?
Answer #1. USDA exhibitors regulation:
    The USDA does not regulate reptiles and would not issue a license 
to someone who only exhibits reptiles. Someone could easily obtain a 
USDA license by acquiring a regulated species for exhibition, such as a 
dog, cat, or rabbit. However, the USDA has no standards and regulations 
for reptiles and would not inspect the reptiles kept by a licensed 
exhibitor.
#2. Pet Trade role: Numerous sources identify the pet trade as the 
        leading cause of non-native animal invasions.
        a.  Study on pet trade
    Florida has the world's worst invasive amphibian and reptile 
problem, and a new 20-year study led by a University of Florida 
researcher verifies the pet trade as the No. 1 cause of the species' 
introductions. The study finds the pet industry was most likely 
responsible for the introduction of 84 percent of 137 nonnative reptile 
and amphibian species introduced from 1863 through 2010, with about 25 
percent of those traced to one animal importer. Of the nonnative 
reptile and amphibian species introduced, 56 have become established in 
Florida. No established, non-native amphibian or reptile species has 
been eradicated and no one has ever been prosecuted for the 
establishment of a non-indigenous species. See http://news.ufl.edu/
2011/09/15/invasive-species/.
#3. U.S. taxpayer eradication costs.
    The U.S. Fish and Wildlife Service, in partnership with many 
organizations, has spent more than $6 million since 2005 attempting to 
address the growing problem of Burmese pythons and other large invasive 
constrictor snakes in Florida.
#4. Survival of snakes outside Everglades.
    Burmese pythons--an invasive species in south Florida--could find 
comfortable climatic conditions in roughly a third of the United States 
according to new ``climate maps'' developed by the U.S. Geological 
Survey. Although other factors such as type of food available and 
suitable shelter also play a role, Burmese pythons and other giant 
constrictor snakes have shown themselves to be highly adaptable to new 
environments. The reported clutch size maximum for Burmese pythons is 
107 eggs. If one pregnant snake escaped or was released into a 
hospitable environment, it could lead to invasive species problems in 
new areas. Other exotic constrictor snakes could potentially survive in 
portions of other U.S. states or territories. A potentially 
irreversible invasion of Boa constrictors was just documented in 
western Puerto Rico in a published article in Biological Invasions by 
Reynold et al. 2012. See: http://link.springer.com/article/10.1007/
s10530-012-0354-2.
#5. Threat to human safety.
    The National Wildlife Federation does not believe that there is any 
need for Congress to choose between protecting children from 
constrictor snakes and reducing motor vehicle collisions with white-
tailed deer. Although there may be more human fatalities from deer-
vehicle collisions than from invasive large constrictor snakes, we view 
the loss of even a single human life from a preventable introduction of 
a constrictor snake to be unacceptable.
#6. Threats to wildlife and ecosystems.
    Burmese pythons are preying on endangered species, such as the Key 
Largo woodrat and wood stork, which have cost taxpayers more than $102 
million in recovery programs from 1999 to 2009. Many other endangered 
species are found in Florida and other States and territories that 
would be threatened by large constrictor snakes. Pythons have been 
reported to consume leopards in their native range, and thus even top 
predators, such as the endangered Florida panther, may be at risk. The 
potential cost of predation by a single python can be quite 
substantial. Academic experts and government officials estimate that a 
single large python whose diet consists mainly of federally endangered 
wood storks can cause $6 million in damages in lost fauna per 
year.<SUP>i</SUP>
---------------------------------------------------------------------------
    \i\ Henry T. Smith, Dr. Arthur Sementelli, Dr. Walter E. Meshaka 
Jr., Ph.D., Richard M. Engeman, ``Reptilian Pathogens of the Florida 
Everglades: The Associated Costs of Burmese Pythons,'' Endangered 
Species UPDATE, Vol. 24 No. 3 2007.
---------------------------------------------------------------------------
#7. Science on other invasions.
    Large constrictor snakes have already established breeding 
populations outside of the Everglades. At the Deering Estate at Cutler 
(Miami-Dade County, Florida), invasive B. constrictor were found in 
multiple habitats, including tropical hardwood hammocks, dirt roads/
trails, landscaped areas, and pine rocklands. Large pythons have also 
been found at Lake Okeechobee, almost a hundred miles north of the 
heavy concentrations in the Everglades. And, as cited above, B. 
constrictor have recently invaded in western Puerto Rico.
                                 ______
                                 
    Dr. Fleming. Thank you, Mr. Kostyack.
    Mr. Heflick, you are up, sir, for 5 minutes.

STATEMENT OF SHAWN K. HEFLICK, ``THE PYTHON HUNTERS,'' NATIONAL 
                       GEOGRAPHIC CHANNEL

    Mr. Heflick. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to appear and speak before you.
    My name is Shawn Heflick. And my interest in this hearing 
and subject matter is multi-faceted. I am a biologist who has 
completed his master's degree on invasive species in Florida. I 
have traveled the world, capturing and studying pythons, 
anacondas, and boas on five continents. I am the president of a 
conservation NGO out of the Amazon Basin, a licensed python 
agent for both the Everglades National Park and Florida 
Wildlife Commission, and the host of National Geographic Wild 
series, ``The Python Hunters,'' which explores exactly this 
topic.
    The question today is whether several species of snakes 
should be added to the Lacey Act list of injurious species, and 
whether that listing would further the restoration of the 
Everglades. My answer is simple: no. Why? Multiple reasons.
    First, no anaconda or reticulated python populations exist 
in the United States, even though these animals have been here 
for half-a-century. In addition, there is a glaring lack of 
data for any negative impact of the existing wildlife--or wild 
Burmese Python populations. The alleged severe mammal decline 
in South Florida due to the Burmese Python population is, in my 
professional opinion, a travesty of science, especially when 
the data tell an entirely different story: natural hydrological 
cycles; effects of high mercury levels; fire regimes; general 
water pollution; increased alligator population; increased 
scavenger populations; increased mesopredator populations; 
increased vehicle traffic; two record-low winters with hard 
freezes; changes in manmade water regimes; a huge, massive 
increase in feral cat populations estimated at 10 to 15 million 
in the State of Florida, among many other potential causes 
totally unaccounted for in this study. Totally unaccounted for 
in this study.
    In fact, two of the authors of this study, who I know, 
openly stated that they believe the real reason for the decline 
in mammals is the depressed hydrological cycle within the 
Everglades National Park. From firsthand boots on the ground 
experience, I can take you to the Everglades today and show you 
more signs of small mammals in one day and evening than this 
entire study of 8 years exhibited. Something is grossly wrong 
with that disparity.
    Snakes are temperature-sensitive. With permitting from the 
Florida Wildlife Commission and collaboration from the USDA 
APHIS, I conducted a study in 2010 during the hard freeze, 
which included both boa constrictors and Burmese Pythons. 
Within just 4 days--4 days--100 percent of all of those 
constrictor snakes in that outdoor enclosure had died, due from 
exposure. Simply put, the outside ambient temperature had 
dropped below the python and boa's critical thermal minimum, 
which caused death. Environmental temperatures, physiology and 
behavior limit the range expansion of these Burmese Pythons in 
the Southeastern United States.
    This also offers insight as to why the Burmese population 
has not expanded outside of South Florida in almost two 
decades, and is seemingly, by the numbers, on the decline since 
the 2009 and 2010 cold snap. Furthermore, from January 1, 2012 
to the present, 71 Fish and Wildlife Commission python agents 
have captured a total of only 46 pythons for this entire 
calendar year. The population is, indeed, lower. And the 
numbers prove it.
    The same formal data is applicable to the rest of these 
proposed tropical species, and would severely limit their 
ability to survive. The competition for resources and prey is 
immense. And the idea that a reptile predator in the system is 
not novel. The Everglades is not a paradise for invading 
tropical pythons or boas. On the contrary, it is a harsh, 
subtropical environment that is riddled with predators, 
roadways, vehicles, pollutants, and an ever-increasing pressure 
from human development.
    Last year I participated on a panel for invasive species at 
an academic conference with partners in reptile conservation 
where I asked university biologists, state biologists, fish and 
game enforcement, zoo curators, reptile industry experts, 
Department of the Interior biologists if any one of them 
thought boa constrictors were invasive species and could 
possibly pose a problem in the United States. Not one of these 
field experts raised their hand. Not one of these experts, who 
work day in and day out with these issues on the ground, 
believe them to be a problem.
    The same sentiment can be found among biologists and 
ecologists for reticulated pythons and green anacondas, as 
well. These are not the invasive monsters that they are 
portrayed to be. And crippling thousands of small businesses 
and family breeders will accomplish nothing to save the 
Everglades. Thank you for your time.
    [The prepared statement of Mr. Heflick follows:]

               Statement of Shawn Heflick, Herpetologist

    Mr. Chairman, Madam Chairwoman, members of the Subcommittees, I 
want to thank you for the opportunity to appear before you and to 
present testimony at this oversight hearing on ``Constrictor Snakes and 
Other Invasive Species''. As a herpetologist and a resident of the 
State of Florida, I welcome the opportunity to testify and to answer 
questions on this important issue.
    My name is Shawn Heflick, and my interest in this hearing and 
subject matter is multifaceted. I am a biologist who completed his 
Masters Degree on invasive species in Florida. I have also traveled the 
world capturing and studying pythons, anaconda and boas on 5 
continents, I am the president of a conservation NGO out of the Amazon 
Basin, a licensed Python Agent for both the Everglades National Park 
and Florida Fish and Wildlife Conservation Commission, and the Host of 
National Geographic WILD's series, the Python Hunters, which explores 
the conservation issues of reptiles around the globe and educates 
people about their plight. In addition to my field experience and 
academic background as a biologist, I am a former breeder of large 
constrictors and considered an expert in the natural history, 
husbandry, breeding and behavior of these reptiles.
    The question today is whether the Beni Anaconda, DeSchauensee's 
Anaconda, Green Anaconda, Reticulated Python and Boa Constrictor should 
be added to the Lacey Act list of Injurious Species and whether that 
listing would further the restoration of the Everglades.
    My answer is simple: IT WILL NOT Why? For several reasons. First, 
NO anaconda or reticulated python populations exist in the US. In 
addition, there is a glaring lack of data for any negative impact of 
the existing wild Burmese Python population. The alleged severe mammal 
decline in south Florida (Dorcas et al. 2011) due to the Burmese Python 
population is, in my professional opinion, a travesty of science 
especially when their own data tell an entirely different story. 
Natural hydrological cycle (semi-drought conditions for the last 
decade), effects of high mercury levels, fire regimes, general water 
pollution, increased alligator population, increased scavenger 
populations, increased meso-predator populations, increased vehicle 
numbers, two record low winters with hard freezes, change in water 
regimes (man-made), natural cycles in populations . . . rabbits (7-
10yrs), deer, etc., and a HUGE increase in feral cat populations 
(estimated at 10-15 MILLION in Florida), and on, and on, and on . . . 
are all unaccounted for in this study. Two of the authors openly stated 
that they believe the real reason for the decline in mammals is the 
depressed hydrological cycle within the Everglades National Park. From 
firsthand, boots on the ground, experience I can take you to the 
Everglades and show you more signs (tracks, scat, live specimen, etc.) 
of small mammals in one evening than they found in their entire 8 year 
study, which involved them ONLY surveying from their vehicles on roads. 
Something is grossly wrong with that disparity.
    With permitting from Florida Wildlife and Conservation Commission, 
and collaboration from the USDA/APHIS/WS, I conducted a cold study in 
2010 during the hard freeze, which included both Boa constrictor and 
Burmese Pythons. Within just four days, 100% of the specimens in the 
enclosure had died due to exposure to the cold. Simply put, the outside 
ambient temperature had dropped below the python and boa's critical 
thermal minimum, which caused death. Jacobson et al. 2012., 
Environmental temperatures, physiology and behavior limit the range 
expansion of invasive Burmese pythons in southeastern USA also offers 
insight as to why the wild Burmese Python population has not expanded 
outside of south Florida, and is seemingly on the decline as exhibited 
by the massive die-offs of 2009/2010. Furthermore, from January 1, 2012 
to the present, seventy one (71) Florida Wildlife Conservation 
Commission python agents have captured a total of only 46 pythons in 
the last calendar year. Population numbers are lower than ever before.
    This same thermal data is applicable to the rest of these proposed 
tropical species, and would severely limit their ability to survive. As 
a matter of record, no established populations of reticulated python or 
anaconda species have been found in the wilds of south Florida. The 
competition for resources and prey items is immense, and the idea of a 
reptile predator in the system is not novel. South Florida has large 
Eastern Diamondback Rattlesnakes, Indigo snakes, and the apex predators 
of the system, the American alligator and American crocodile, who 
regularly feed upon large snakes. The Everglades is not a paradise for 
invading tropical pythons or boas. On the contrary, it is a harsh, sub-
tropical environment that is riddled with predators, roadways, 
vehicles, pollutants and ever increasing pressure from human 
development.
    This is a Florida problem, not a national one. Florida currently 
has a set of progressive and stringent regulations effectively dealing 
with these issues. These regulations have already reduced the trade in 
these large constrictors by 95%, leaving the majority of remaining 
specimens in the hands of qualified, permitted professionals and a 24/7 
Amnesty Program which gives those still holding animals an avenue to 
surrender them.
    Any discussion about these species should be coupled with a 
legitimate scientific study and assessment of their ability to 
establish and become invasive. If these species were assessed 
individually in a probability study, it would reveal that many of them 
are extraordinarily uncommon or non-existent in the pet trade such that 
their rarity in the U.S. virtually negates their ability to become a 
problem. Species like the Bolivian Anaconda (Eunectes beniensis) and De 
Schauensee's Anaconda (Eunectes deschauenseei) are not represented in 
the United States. Last year I participated on a panel for invasive 
species at an academic conference for partners in reptile conservation, 
where I asked university biologists, state biologists, state fish and 
game enforcement, AZA zoo curators, reptile industry experts and 
Department of Interior biologists if anyone thought Boa constrictor 
were an invasive species and could possibly pose a problem for the U.S. 
Not one of these FIELD EXPERTS raised their hand . . . not one of these 
individuals who work day in and day out with these issues believe boas 
to be a problem. The same sentiment can be found among biologists and 
ecologists for Reticulated Pythons and Green Anacondas as well. These 
are not the invasive monsters that they are portrayed to be. The vast 
majority of my biology colleagues agree that feral cats and feral pigs 
are the worst vertebrate invasive problems facing ecosystems today. 
Tens of millions of these animals devastate BILLIONS of small mammals 
and birds each year, as well as, TENS OF THOUSANDS of acres of critical 
habitat every year. If we TRULY want to save our natural areas and 
wildlife, we MUST START working on THESE REAL ISSUES.
    Again, thank you for the opportunity to appear before this joint 
hearing of the Subcommittees. I am happy to answer any questions you 
may have.
                                 ______
                                 
    Dr. Fleming. Yes. Thank you. And next, Ms. Sutherland, you 
are recognized now for 5 minutes.

               STATEMENT OF COLETTE SUTHERLAND, 
           THE SNAKE KEEPER, INC., SPANISH FORK, UTAH

    Ms. Sutherland. Mr. Chairman and members of the 
Subcommittee, I am Colette Sutherland and, along with my 
husband, Dan, own TSK, Incorporated, also known as ``The Snake 
Keeper,'' a small family business with five full-time and three 
part-time employees. Here we maintain approximately 1,000 
snakes, a rodent colony, and a reptile-related supply business.
    I am also a member of the Pet Industry Joint Advisory 
Council's Reptile and Amphibian Committee. Thank you for 
inviting me to present testimony on the H.R. 511 bill that 
would add 5 additional species of constrictor snakes to the 
Lacey Act.
    I have been keeping and breeding various types of reptiles 
for the past 40 years. I have a zoology degree from Brigham 
Young University, and my written testimony references several 
of my publications, including providing 10 years of production 
data as the basis for Dr. Morrell's doctoral thesis on 
quantitative genetic analysis of reproductive traits in bald 
pythons.
    With respect to H.R. 511, I have serious concerns about the 
approach being taken. Listing a species in the Lacey Act by 
legislative fiat is not, in my opinion, the best course for 
dealing with Federal regulation of an invasive species, 
especially when the invasive issue is localized, at best, in 
Southern Florida.
    The listing process currently employed by the Fish and 
Wildlife Service, while possibly in need of revision, at least 
is founded upon science-based findings. The process is open to 
public comment, peer review, and potential modification via the 
regulatory process. The Fish and Wildlife Service has already 
listed four species, and deferred making a final decision with 
respect to five non-native constrictor species, because it did 
not believe that their listing was warranted. I believe that 
the Service is in the best position to make such findings. I am 
opposed to a nationwide ban of any species whose potential 
negative impact, at best, is limited to extremely localized 
areas such as South Florida.
    Adding the boa constrictor would be most devastating to the 
reptile industry. Boas are produced by the thousands by 
commercial and non-commercial breeders, such as our company, 
throughout the United States. There is a tremendous variety of 
size and color, even among the normally colored specimens. Boas 
are one of the most commonly kept large constrictor species in 
the world.
    In the year 2000 we added boas to our collection. 
Conservatively, we have invested a minimum of $300,000 in 
acquiring our breeding colony. We have invested thousands in 
caging supplies and maintenance of our breeding operations. We 
sell our offspring throughout the United States, as sport 
animals to other countries. With just the talk of having boas 
added to the Lacey Act, the value of our boa collection was 
devastated. Snakes that I had paid $25,000 a pair for I could 
barely sell for $1,500 as a breeding adult. Their progeny, 
which had been selling for approximately $7,500 each prior to 
the proposed listing plummeted to $1,500 or even less, if I 
could find a buyer at all.
    We had to make a very hard business decision, as well as a 
heart-breaking decision, after trying to market our adult boas 
to other breeders in States that would have been allowed to 
export them--because there is no port in my State, so I never 
would have been allowed to export them. It became apparent that 
there were no buyers. We even tried to give some of the adults 
away, and nobody wanted or was willing to accept them, due to 
the potential talk of the ban. We ended up euthanizing over 60 
adult boas. We still maintain some boas, but not nearly what we 
once had. And we were considered a medium-sized breeder.
    In assessing the financial loss we incurred, Dan and I 
figured out the potential production of viable progeny, had we 
been able to keep those breeding animals intact without 
augmenting the breeding stock, we conservatively estimated 
those 60 breeders, over their natural breeding lifespan and 
normal birthrates, could have generated approximately $2 
million, had the market not collapsed in light of the potential 
ban.
    I know there has been a lot of talk about it only affects a 
small percentage of small businesses, but I am one of those 
small businesses. And we have been involved in this since I 
have--for at least 30 years, breeding and selling these snakes. 
And I am not the only one. There are hundreds of us across the 
U.S. that do this, and we all work very hard and responsibly to 
make sure we are providing a good product, and that we tell the 
purchasers--we give them guidelines and expect them to take 
care of their animals and be responsible keepers.
    And I don't see the need to have a nationwide ban when this 
is totally a localized situation in South Florida.
    Thank you for allowing me the time to speak to you today.
    [The prepared statement of Ms. Sutherland follows:]

               Statement of Colette Sutherland, TSK, Inc.

    Mr. Chair and members of the Subcommittee, I am Colette Sutherland 
and I along with my husband Dan own TSK, Inc. that was started back in 
1989. Thank you for inviting me to present testimony on the H.R. 511, a 
bill that would add nine species of constrictor snakes to the Lacey 
Act.
    I have been keeping and breeding various types of reptiles for the 
past 40 years. I have a Bachelors of Science in Zoology with a teaching 
option in Biology from Brigham Young University in 1985. While at the 
University I worked in the Herpetology department taking care of the 
live reptiles that were there at the time. The reptiles there included 
a Burmese python, common boa, Gila monster and various venomous snakes.
    In 2000 we were approached by Dr. Mark Seward to make a video on 
breeding ball pythons. We agreed and the video and accompanying 
information came out in 2001. In late 2004 I was approached by TFH, a 
large animal care publishing company, and authored a basic book on ball 
python care for their ``Quick and Easy'' series. In late 2008 I was 
again approached by TFH to write another more comprehensive ball python 
book for their ``Complete Herp Care'' series which was published in 
2009. In 2011 Benson Morrill, a Utah State University graduate, used 
data that had been collected at our facility for close to 10 years to 
publish his doctoral thesis--Quantitative Genetic Analysis of 
Reproduction Traits in Ball Pythons. In 2012 this paper was also 
submitted by Dr. Benson Morrill to the Journal of Animal Breeding and 
Genetics.
    With respect to H.R. 511, I have serious concerns about the 
approach being taken. Listing a species under the Lacey Act by 
legislative fiat is not in my opinion the best course for dealing with 
Federal regulation of an invasive species. The listing process 
currently employed by the Fish and Wildlife Service while possibly in 
need of revision to be more expeditious at least is founded upon 
science-based findings. The process is open to public comment, peer 
review, and potential modification via the regulatory process. As you 
are aware the U.S. Fish and Wildlife Service earlier this year listed 
four species of large constrictor snakes as injurious under the Lacey 
Act. The Service deferred making a final decision with respect to five 
non-native constrictor species that the Service at that time did not 
believe that listing was warranted. I believe that the Service is in 
the best position to make such findings. I submitted comments at 
various stages of the Fish and Wildlife Services' evaluation of large 
constrictor snakes. Additionally, as a member of the Pet Industry Joint 
Advisory Council's (PIJAC) Reptile and Amphibian Committee, I worked 
closely with them in addressing various aspects of the regulatory 
listing process. Then as now I am opposed to a nationwide ban on any 
species whose potential negative impact at best is limited to extremely 
localized areas in south Florida.
    According to Fish and Wildlife Service a species is evaluated on a 
variety of factors before it can be listed as injurious: ``Such as the 
species' survival capabilities and ability to spread geographically; 
its impacts on habitats and ecosystems, threatened and endangered 
species, and human beings and resource-based industries; and resource 
managers' ability to control and eradicate the species. Analysis of 
these factors guides the Service's listing determination. Scientific 
data is reviewed for factors that contribute to injuriousness and 
factors that reduce or remove injuriousness. In addition, other laws 
require that various economic analyses are conducted to determine the 
economic impacts of potential rulemakings''. Four of the original 9 
large constrictors have already been added to the Lacey Act's injurious 
species list. The remaining five, Beni anaconda, DeSchauensee's 
anaconda, Green anaconda, Reticulated python and Boa constrictor are 
what will be discussed here.
    Using the above criteria, we will look at the potential impact that 
the three anaconda species may have upon the Continental United States. 
Hawaii is left out since it is illegal to ship any snake to Hawaii and 
we can certainly exclude Alaska, as it is far too cold for any boa or 
python to survive there unless kept under captive conditions. The Beni 
and DeSchauensee's anacondas at this time are not available in the pet 
trade nor are they currently kept in our country anywhere. Even if 
these 2 species did exist in the pet trade, there are no suitable 
climates here in the United States for them to successfully thrive 
according to the USGS risk assessment, let alone survive. Since there 
are no existing climates in the United States where they could survive 
that seems to preclude them from being injurious. What would be the 
purpose of adding them to the Lacey Act,--they don't even exist in our 
country neither could they survive here in the wild.
    In response to a recent inquiry regarding the status of these two 
species, David Barker, a noted herpetologist and author emailed me the 
following information on November 20:
        To my knowledge, there has never been a live specimen of 
        beniensis in the country (and I've looked). There very few 
        records or reports of the northern yellow anaconda, E. 
        deschauenseei in captivity in this country or Europe, and I am 
        not aware of any in captivity in the past 30 years. Both 
        species are given no chance of surviving in this country, 
        according to the climate match of Reed and Rodda (2009).
    The green anaconda on the other hand is in the pet trade, although 
in very small numbers. It has never had a huge following. The very 
large size along with its requirement of a more specialized care has 
limited the number of people that can successfully raise such a 
species. The green anaconda could potentially live in one area of the 
United States and that would be south Florida, however Florida has 
already taken steps to prevent an introduction of this species into the 
Everglades. As of July 1, 2010 a Florida law was passed to deal with 
reptiles of concern. The green anaconda is on this list and is no 
longer available for personal use in the State of Florida. Private 
citizens that owned this snake prior to this date were grandfathered in 
and allowed to keep their animal until it expired as long as they 
followed the rules set out by the law. The snake must be micro chipped 
and the owners are required to follow all reporting and security 
procedures. Commercial dealers, exhibitors and research institutions 
can have them, but they must adhere to strict bio-security requirements 
for housing and transporting the animal. In essence the State of 
Florida has already effectively mitigated any potential problem posed 
by the green anaconda. Again looking at one of the criteria used by 
Fish and Wildlife Service with respect to its ability to spread 
geographically, green anaconda can only survive in a very small portion 
of southern Florida where the temperature and amount of water is 
consistent for their survival. Since Florida has already enacted very 
stringent regulations regarding the keeping of this species, again what 
would be the purpose of adding them to the Lacey Act? Quite simply a 
nationwide ban is not warranted by any scientific measure.
    Next is the reticulated python. Unlike the green anaconda, the 
reticulated pythons are broken down into three subspecies Python 
reticulatus reticulatus, Python reticulatus jampeanus, and Python 
reticulatus saputrai. The smallest of these subspecies is Python 
reticulates jampeanus with adult females attaining lengths between 6--8 
feet. All of these subspecies have been bred together in captivity in 
an effort to produce a smaller reticulated python. Another substantial 
difference between the reticulated python and the green anaconda is the 
tremendous color variation seen in captive bred individuals, because of 
the number of beautiful color morphs (name given to colors and patterns 
that differ from the normal wild pattern and color). Like the green 
anaconda, the reticulated python could potentially live in south 
Florida as the USGS risk assessment indicates and because of this, it 
too is listed as a reptile of concern by the State of Florida and the 
same bio-security rules apply to it as do the anaconda. Once again the 
State of Florida has taken care of a potential problem. Since the State 
of Florida has effectively addressed this issue why is it necessary for 
the Federal Government to step in when the species in question cannot 
inhabit any other area of the continental United States? Once again a 
nationwide ban is not warranted.
    Finally we come to the Boa constrictor. As with the reticulated 
python there are subspecies of Boa constrictor that need to be taken 
into consideration. Depending upon which taxonomic source is used there 
can be 9 subspecies. There is a tremendous size and color variation 
among this group of snakes. One subspecies, Boa constrictor 
occidentalis, the Argentine boa is listed as a CITES Appendix 1 animal 
and cannot be imported into the United States for commercial purposes 
and any international trade would be limited to the zoological 
community. This subspecies is only kept in very limited numbers by a 
small group of individuals. Out of the remaining 8 subspecies, only 3 
are readily available in the pet trade and one of those Boa constrictor 
imperator is widely kept and bred. According to USGS the only areas of 
potential habitat for Boa constrictor imperator in the continental 
United States is once again Florida and possibly southern Texas. In the 
instance of the Deering Estate population of Boa constrictor, in Miami 
Dade County, they have existed in this park for the past 40 years and 
have not expanded out of the park. This is the only established 
population of any Boa constrictor species in the continental United 
States and it is a surviving population, not a thriving population. 
This group has shown that it is not able to successfully spread beyond 
the borders of the park. Quite simply they do not pose a risk to the 
rest of the country and could be potentially eradicated from such a 
small geographical area. Its ability to spread has been limited, so why 
does this group need to be added to the Lacey Act? Again a nationwide 
ban is not justified.
    Restoration of the Everglades is a noble objective which 
encompasses myriad complex issues. The word restoration is defined as 
bringing back to a former position or condition. The historical water 
drainage that formed the Everglades has been altered considerably. Due 
to this altering it is doubtful that the Everglades will ever truly be 
restored to what it once was. While one might argue that the Fish and 
Wildlife Services earlier listing of Burmese pythons has addressed one 
aspect of Everglades restoration, none of the five non-listed species 
being considered for addition to the Lacey Act in H.R. 511 are found in 
the Everglades--adding them would not add to the restoration of the 
Everglades. I do think that it is also important to note that many of 
these snakes have been in the private sector for at least 60 years or 
longer and I am sure that there have been escapees, and a few that have 
been released here and there by irresponsible owners. However nowhere 
else in the continental United States have these animals ever 
established a population, except in Florida and even at that, it was 
limited to only 2 species in southern Florida.
    Adding the anacondas (DeSchauensee's and Beni) to the Lacey Act 
would not impact any breeders or dealers at all, adding the green 
anacondas would affect a small number of breeders and it would impact 
zoos and others institutions.
    Adding reticulated pythons would be devastating to those that bred 
them across the United States. These breeders, some have spent decades, 
working with this species to produce smaller and beautifully colored 
reticulated pythons. Some of these individuals sell for $ 25,000.00 
each. While it is true this does not represent a large number of 
people, these breeders employ others, pay taxes and work hard to 
produce very desirable specimens for serious hobbyists. This activity 
has grown in recent years because of the reduced size of reticulated 
pythons and the great of amazing patterns and colors that have been 
produced as our understanding of genetics has improved. Today, there 
are very few normally colored animals produced. Thousands of people 
across the United States own and responsibly enjoy their reticulated 
pythons. With the passage of H.R. 511 these people would no longer be 
able to take their pet with them if they moved from one state to 
another. Nor could they participate in breeding programs if interstate 
movement was involved. I simply do not see the benefit of adding these 
to the Lacey Act since the species have not, nor have shown a 
propensity to be an invasive species in Florida, let alone other parts 
of the United States.
    Adding the Boa constrictor would be even more devastating to the 
reptile industry. Boas are produced by the thousands by commercial and 
non-commercial breeders throughout the United States. There is a 
tremendous variety of size and color, even among the normally colored 
specimens. Boas are one of the most commonly kept large constrictor 
species in the world. We added boas to our collection back in 2000. 
Conservatively, we have invested a minimum of $300,000 in acquiring our 
breeding colony. We have invested thousands in caging, supplies and 
maintenance of our breeding operations. We employ people to work with 
us, and sell our progeny throughout the United States as well as export 
animals to other countries
    With just the talk of having boas added to the Lacey Act the value 
of our collection plummeted. Snakes that I had paid $25,000.00 a pair 
for as babies I could barely sell for $1,500.00 each as a proven 
breeding animal. Their progeny which had been selling for approximately 
$7,500.00 each prior to the proposed listing, plummeted to $1,500.00 
each if I could find a buyer at all. Sales stagnated. We had to make a 
very hard business as well as heartbreaking decision. After trying to 
market our adult boas to other breeders in states that would have been 
allowed to export the offspring overseas it became apparent that there 
were no buyers. We even tried to give them away, no luck. We ended up 
euthanizing over 60 adult boas. We still maintain some boas, but not 
nearly what we once had and we were considered a medium sized 
operation.
    In assessing the financial loss we incurred, Dan and I figured out 
the potential production of viable progeny had we been able to keep 
those breeding animals intact. Without augmenting the breeding stock, 
we conservatively estimated those 60 breeders over their natural 
breeding lifespan and normal birth rates could have generated 
approximately $2,000,000 had the market not collapsed in light of the 
potential nationwide ban.
    I do not support H.R. 511. The Fish and Wildlife Service utilizes 
well established and accepted guidelines that they developed over the 
years to help them determine if a species is injurious. Adding species 
to the Lacey Act through legislative fiat completely negates the roll 
of the Fish and Wildlife Service in determining if a species is 
injurious. Circumventing the regulatory process by allowing species to 
be designated ``injurious'' without going through a science based risk 
analyses allows very powerful special interests to be able to convince 
legislators that certain species are harmful when in reality they are 
not. This is a dangerous precedent.
    In conclusion, I remain mystified as to why the Congress believes 
its scientific analysis should supersede that of the Federal agency 
they designated to conduct the requisite risk analysis of species that 
might warrant listing under the Lacy Act. The State of Florida has 
addressed the issue; it has implemented a comprehensive regulatory 
process to protect Florida's interests. A nationwide ban is not 
warranted and I urge that H.R. 511 not be supported.
    Thank you for providing me an opportunity to submit my comments.
                                 ______
                                 
    Dr. Fleming. Thank you, Ms. Sutherland. Thank you for your 
testimony.
    Now, Mr. Jenkins, you are recognized, sir, for 5 minutes.

  STATEMENT OF PETER T. JENKINS, EXECUTIVE DIRECTOR, NATIONAL 
          ENVIRONMENTAL COALITION ON INVASIVE SPECIES

    Mr. Jenkins. OK, thanks very much. Thanks for the 
opportunity to testify today. I am testifying as a consultant 
working through my firm, ``The Center for Invasive Species 
Prevention,'' consulting for the National Environmental 
Coalition on Invasive Species, or NECIS. NECIS includes the 
National Wildlife Federation, John's organization, the Nature 
Conservancy, the Wildlife Society, Great Lakes United, National 
Audubon, and many other groups.
    Given the short notice for this hearing, my full testimony, 
which I have submitted, hasn't been approved as NECIS 
testimony. But the positions I am going to advocate are the 
NECIS positions.
    When the Fish and Wildlife Service listed the four snake 
species at the beginning of this year, it basically violated 
the Lacey Act in that decision by excluding the five other 
species for reasons that had nothing to do with the Lacey Act 
and the statute. That is the problem that H.R. 511 can fix, if 
the 2 bad amendments are removed that John Kostyack referred 
to.
    The statutory standard that the Service's listing should 
have followed was not to weigh the benefits versus the revenue 
losses of Ms. Sutherland and others from a possible Lacey Act 
listing. It was to decide simply whether the snakes fit the 
definition of an injurious species under the Act. That 
definition is--and I quote--``Are they injurious to human 
beings, to the interest of agriculture, horticulture, forestry, 
or to wildlife or the wildlife resources of the United 
States?''
    It is abundantly clear that all nine of these large 
constrictor snakes meet that standard. Let me address the five 
snakes that weren't listed. We know for a fact that the Fish 
and Wildlife Service--as was mentioned by Mr. Sablan--the Fish 
and Wildlife Service wanted to list all nine of the species. 
They felt it was scientifically the right decision. But they 
were compelled by OMB to cut the list back to the four species. 
Why? Because OMB apparently got persuaded by USARC's claims--
that Mr. Wyatt is going to talk about, I'm sure--which are 
about lost revenues, which is fine, but it is against the 
statutory standard that I just mentioned.
    Boa constrictors, which we have heard a lot about, which 
were excluded from listing due to OMB, have already invaded at 
least twice in South Florida--or at least twice in this 
country--and are high risk, according to the USGS. We just 
received confirmation last night from leading scientific 
experts with USGS and university scientists that there is a 
rapidly expanding invasion of boa constrictors now in Puerto 
Rico.
    People have known about this invasion, but we weren't clear 
on how serious it was. And there should be new evidence 
published within the next week or two in peer-review journals 
that we are not just talking about a South Florida problem. It 
is not a localized problem. It is a problem for South Texas, 
Puerto Rico, any semi-tropical area in this country. The Island 
Territories, you name it, boa constrictors can easily and 
readily invade there, and they have in Puerto Rico. So let's 
get off that this is a localized South Florida problem.
    Reticulated pythons were also excluded because of OMB 
pressure from that listing. The thing about reticulated 
pythons, we don't have evidence of invasions yet, but we know 
that they are known as particularly vicious animals. They are 
prone to unprovoked attacks. And in their native ranges, it is 
reported they are occasional man-eaters. Reticulated pythons in 
this country have killed more infants than any other snake, 
including an 11-month-old boy, a 20-month-old boy, and a 7-
month-old girl in her crib.
    The other three species OMB excluded were the anacondas. 
Now, is there anyone in this hearing room who really believes 
that we need anacondas as pets in this country?
    OMB's interference was extremely unfortunate also because 
USARC's lost revenue claims are grossly inflated and 
unrealistic. Georgetown Economic Services, which you mentioned, 
Mr. Chairman, which did the USARC reptile study, is a 
subsidiary of the law firm that represents Mr. Wyatt's 
organization. Of course it is a biased study. Its findings were 
severely critiqued by outside economists, including Tim Kroger, 
an economist with The Nature Conservancy. According to Dr. 
Kroger's statement, which I would like to hand in for the 
record, Mr. Wyatt's study has serious flaws. Dr. Kroger 
identifies so many biased assumptions and errors of facts and 
misstatements in that study that it is too long to list here. 
But they are included in my written testimony.
    Some other key points, if I may. At least 750 different 
reptile species are in the animal import trade in the U.S. If 
H.R. 511 passes, the reptile importers and breeders face losing 
up to only 5 species. That is less than 1 percent of the total 
of the reptile trade. There are numerous safer, non-invasive 
species that can substitute for those lost five, and they will. 
They are doing it. The pet industry is highly adaptable. The 
snake breeders generally do import and breed lots of other 
species besides the large constrictors. So they can and will 
adjust their operations.
    I would just like to finish on the important point that was 
mentioned. Of the 17 deaths that have occurred across the 
Nation due to these snakes that these breeders are selling in 
this country, these have an economic value, not to mention the 
incredible hardship and tragedy that these families and 
children who are involved in these deaths suffer.
    So, USARC's approach seems to be to just ignore this and 
say, ``Buyer Beware.'' Oh, everyone has got to take care of the 
problem on their own. But what about the children and the 
infants who are strangled in their cribs? How are they supposed 
to beware of this problem? This is real. This is a real part of 
the injuriousness standard. It is not just about South Florida. 
Thank you.
    [The prepared statement of Mr. Jenkins follows:]

          Statement of Peter T. Jenkins, Executive Director, 
                 Center for Invasive Species Prevention

    Chairman Fleming, Ranking Member Sablan, members of the 
Subcommittee, thank you for the opportunity to testify on H.R. 511 and 
the issue of listing the nine species of large constrictor snake--boas, 
pythons and anacondas.
    I am testifying as a consultant, working through my firm the Center 
for Invasive Species Prevention, consulting for the National 
Environmental Coalition on Invasive Species (NECIS). NECIS is a 
coalition of groups concerned about invasive species and Federal 
policy. It includes the National Wildlife Federation (NWF), The Nature 
Conservancy, The Wildlife Society, Great Lakes United and many other 
groups. Given the short notice for me being a witness, my full 
testimony has not been approved as NECIS testimony, but the policy 
positions I will advocate on H.R. 511 and on the listing of the nine 
snakes are the NECIS positions.
    A bit on my background: I have 22 years of experience, both 
national and international, in invasive species as a policy analyst, 
attorney, advocate, lobbyist, consultant, manager, author and speaker. 
I have been invited to speak at conferences around the world on 
invasive species policy and management and testified twice before to 
this Sub or Full Committee on the topic--once back in 1993 and again in 
2008. I have approximately 15 publications addressing multiple aspects 
of invasive species, including having written the chapter on the ``Pet 
Trade'' in the comprehensive Encyclopedia of Biological Invasions, 
published in 2011 by the University of California Press. My most recent 
paper is in Biological Invasions, entitled ``Invasive animals and 
wildlife pathogens in the United States: the economic case for more 
risk assessments and regulation.'' That latter topic is really what I 
will focus on here: the economics and the case for more regulation of 
these snakes, not less.
    When the Fish and Wildlife Service listed the 4 snake species at 
the beginning of this year, it basically violated the Lacey Act by 
excluding the 5 other species for non-statutory reasons. That is the 
problem that H.R. 511 could fix, if the two bad amendments to it are 
removed, as referred to by John Kostyack of NWF in his testimony. The 
statutory criterion the Service's listing should have followed was not 
to weight the benefits versus the costs of a possible Lacey Act 
listing, it was to make a science-based decision on whether these 
snakes fit the definition of an ``injurious species'' under that Act, 
i.e., whether the species are:
        injurious to human beings, to the interests of agriculture, 
        horticulture, forestry, or to wildlife or the wildlife 
        resources of the United States.
    It is abundantly clear these large constrictor snakes meet that 
definition. The USGS snake expert report thoroughly assessed the 
question of ``injuriousness''. The current and potential risk these 
massive constricting non-native snakes pose is beyond reasonable doubt, 
given the high likelihood that if further unregulated imports and 
interstate commerce occur, these snakes will continue to be released by 
irresponsible pet owners and will continue to be able to establish 
harmful breeding populations throughout significant areas in the 
southern portion of the nation and in our vulnerable island territories 
too.
    The buyers of these snakes often are not aware of how big they will 
grow and how expensive it is to keep them properly. When the buyers 
realize what they have gotten themselves into with a 15 foot long, 200 
lb., dangerous animal after full grown, it is not surprising that they 
release them in the nearest forest or swamp. Indeed, we know for a fact 
that releases and escapes happen all the time--all over the country.
    Boa constrictors, which were excluded from the listing rule, have 
already been released or escaped and invaded at least twice in this 
country and are ``high'' risk per the USGS report. Reticulated pythons, 
which also were excluded, were ``moderate'' risk invaders per the USGS; 
however, according to the excellent new report by the Humane Society on 
Constrictor Snake Incidents, they also are known as particularly 
``vicious,'' prone to unprovoked attacks and in their native ranges are 
reported as ``man eaters'' more so than any other species of snake. 
Reticulated pythons have killed more infants in this country than any 
other species, including an 11 month old boy, a 21 month old boy and a 
7 month old girl.
    The other three excluded species were the anacondas. Does anyone 
really believe we need anacondas in this country as pets? The question 
answers itself. If we can't restrict anaconda imports, what can we 
restrict?
    We know the Fish and Wildlife Service staff and indeed all the way 
up the Secretary of the Interior wanted to list all 9 species, but they 
were compelled to cut the list back to 4 species by the Office of 
Management and Budget (OMB). Why? Because OMB apparently got persuaded 
to believe the USARK arguments about economic impacts. This was 
extremely unfortunate because economic impacts are not in the Lacey Act 
decision-making criteria the Administration was supposed to follow and 
because USARK's economic analysis was shoddy and unreliable.
    Georgetown Economic Services, which did the USARK ``reptile 
regulation study,'' was a subsidiary of the Washington law and lobbying 
firm that represented USARK in its opposition to the snakes listing 
rule, Kelly Drye & Warren. Economists have criticized their analysis as 
grossly inflated and full of biased assumptions. Its findings of high 
losses are contrary to analysis by the Fish and Wildlife Service, the 
Congressional Budget Office and Timm Kroeger, PhD., an economist with 
The Nature Conservancy. According to Dr. Kroeger's statement, which I 
will give you a copy of, it has ``serious flaws'', i.e., it:
        (1)  Ignores likely substitution effects on the part of both 
        the reptile industry and reptile owners, which leads to a 
        likely large upward bias in the resulting estimates of negative 
        economic impacts from the proposed rule.
        (2)  Focuses only on the negative impacts on one small segment 
        of the reptile industry (that is, breeders and importers of 
        these nine large constrictor snakes) and snake owners that may 
        result from the implementation of the proposed rule, while 
        completely ignoring the positive impacts the rule would have in 
        terms of benefits for native wildlife, including threatened and 
        endangered species, avoided control and eradication 
        expenditures by government agencies, and human safety. Such a 
        one-sided analysis cannot inform sensible public policy, which 
        should consider both the costs and benefits of a regulation.
        (3)  Uses an inappropriate discount rate that by itself leads 
        to a substantial (close to 20 percent) overstating of the 
        projected future costs of the rule. This, together with the 
        unreasonable expectation that no substitution effects will 
        occur on the industry or consumer side, introduces a further 
        upward bias in the study's cost estimates that makes the latter 
        even more doubtful.
        (4)  Incorrectly applies the term ``economic losses'' when 
        referring to what in fact are reductions in revenues for this 
        small segment of the reptile industry. This is not merely a 
        problem of semantics that is likely to mislead many readers of 
        the report. Rather, economic losses--or net reductions in 
        business assets--from reduced sales are always smaller than 
        revenue reductions. By basing its analysis on revenues rather 
        than losses expected to result from the proposed rule but 
        referring to those revenue reductions as losses, the report 
        overstates the actual losses industry may suffer as a result of 
        the rule. This, combined with the likely dramatic 
        overestimation of those expected revenue reductions for the 
        reasons listed in comments (1) and (3) above, further 
        exaggerates any negative impact the rule might have on the 
        reptile industry.
    Some other points related to USARK's report:
        <bullet>  It relies extensively on unreferenced data, i.e., 
        ``fact'' assertions for which no source whatsoever is 
        identified. It relies heavily on data for which the only source 
        is an anonymous ``personal communication'' with unnamed people 
        in the reptile industry. In short, the data sources cannot be 
        checked. It frequently relies on unexplained calculations and 
        includes several admissions that the information used for the 
        study was inadequate. The author was not a PhD. and it was not 
        peer-reviewed.
        <bullet>  At least 750 different reptile species are in the 
        import trade. If H.R. 511 passes, then the reptile importers 
        and breeders face losing only up to 5 species from being 
        imported--less than 1%. There are numerous safer, non-invasive, 
        non-dangerous species they can substitute for those lost 5 
        species, only 2 or 3 of which are actually imported now. The 
        pet industry is highly adaptable. The USARK study ignores that.
        <bullet>  The importers and breeders of those 2 or 3 snakes at 
        risk of prohibition in reality, despite all of USARK's 
        exaggerated claims, appear at most to number one or two dozen 
        small businesses. And those businesses generally import and 
        breed other species too, so they aren't going to go out of 
        business, they will just adjust their operations, as no doubt 
        they already have.
        <bullet>  USARK gave no consideration of environmental benefits 
        in the native range countries from reduced harvesting pressure, 
        even though it is documented that some of these species are not 
        sustainably harvested in some countries.
        <bullet>  Future human deaths caused by the 9 snake species are 
        very predictable based on historical patterns and these snakes' 
        inherent behavior. These are obviously high-impact, tragedies 
        and costs, as the Humane Society has documented. Human deaths 
        certainly must be considered as being far more important than 
        speculative, biased claims of lost snake sales by USARK.
        <bullet>  We know at least 17 deaths have occurred across the 
        nation according to media reports. Likely many more occurred 
        that were not reported in the media. We also know that OMB 
        recognizes a concept known as the Value of Statistical Life, or 
        VSL. Currently, a ``reasonable average'' for the VSL is $5.5 to 
        $7.5 million per life. By this admittedly cold measure, 
        reducing the risks these snakes pose to humans, will provide a 
        substantial economic benefit, while preventing real tragedies 
        to our citizens and families that cannot be economically 
        measured. USARK's approach seems to be ``buyer beware''--but 
        how could the several young children and infants strangled by 
        these snakes beware?
    Unfortunately, the analysis of the economics of listing the snakes 
by USARK, and by OMB and by the Fish and Wildlife Service for that 
matter, fail to consider the benefits in terms of lives saved and 
environmental damage and public lands management and control costs 
avoided. When all those savings are taken into account the national-
level benefits of the snake listings are strong. The selfish interests 
of a few breeders and importers, who have successfully ``externalized'' 
the costs to date and don't pay a dime of the public land control bills 
for their escaped or released snakes, which are footed by the 
taxpayers, should not block the nation from those benefits. Passing 
H.R. 511 without the two bad amendments will achieve that.
    The argument that this is a ``Florida only'' problem and that 
Florida law has already ``taken care of it'' is false. Published 
climate/snake range projections predict the potential range of these 
species as including portions of the ``southern tier'' States, Hawaii 
and the territories. Florida's new law may prohibit most of the 
constrictors as private pets there, but it does not prohibit breeders 
from operating in Florida, where many of them do operate, and selling 
those species into other States. Florida's interests do not match up 
with the national interest in this case.
Further thoughts:
    The snakes listing rule, weak as it was, took 6 years to finalize, 
which is far too long. It illustrates that the Lacey Act injurious 
species listing section (18 U.S.C. 42)--which is 112 years old--is too 
reactive, too slow and is not cost-effective for our nation. All of the 
serious stakeholders involved seem to agree on that, as does the Fish 
and Wildlife Service itself.
    NECIS has strongly endorsed a fix to this problem, H.R. 5864, the 
Invasive Fish and Wildlife Prevention Act of 2012, which was introduced 
by Mrs. Slaughter of New York and has 30 bipartisan co-sponsors. This 
bill would reform the listing process, making it faster and more 
effective, and bring it from the year 1900 when the process was first 
created, into the modern age. On behalf of NECIS and dozens of other 
endorsing groups--from sportsmen's groups to humane organizations--I 
urge you to take up the Invasive Fish and Wildlife Prevention Act in 
the next Congress and to move it to passage. This Subcommittee is the 
gateway to needed reforms and it has not done enough in the past to 
advance them.
                                 ______
                                 

  Response to questions submitted for the record by Peter T. Jenkins, 
       Executive Director, Center for Invasive Species Prevention

Questions from Mr. Sablan:
1.  The benefits of constrictor snake ownership are limited to a very 
small portion of the population, yet the cost imposed by these animals 
if they become invasive will be very great. For example, the Department 
of the Interior Spent $2.23 billion to combat invasive species in 2011 
alone. Do you think that's fair? Should the American tax payer be held 
responsible for bearing these costs? And do you believe state and local 
laws are sufficient to prevent the introduction and spread of large 
constrictor snakes?
2.  Will state laws fully protect America's natural resources from the 
injurious snakes listed in H.R. 511? If not, why not?
3.  A study published in the journal Biological Invasions on November 
30th provides evidence for a growing invasion of Boa constrictor in 
Puerto Rica. Does this provide evidence that H.R. 511 is necessary to 
protect Puerto Ricans and other Americans from the risks posed by the 
species listed in H.R. 511?
4.  How would H.R. 5864, the Invasive Fish and Wildlife Prevention Act 
of 2012, which was introduces by Representative Louise Slaughter, 
prevent harmful species invasions like the ones we have seen in Florida 
and Puerto Rica?
Answers to Questions from Mr. Sablan:
    Answer #1: Benefits etc.: No, it is not fair to externalize the 
costs of these pets to the public. The taxpayer should not pay for 
these costs, the pet industry should via a user fee and after the high-
risk species have been restricted. State and local laws are inadequate 
as it is a nationwide issue involving international imports into more 
than a dozen ports and interstate commerce that no one State can 
regulate.
    2. State laws. No, because States do not and cannot regulate 
commerce across their borders, except Hawaii and perhaps Alaska. The 
others cannot prevent animals from being imported into their State from 
other States.
    3. Puerto Rico invasion. Yes, this invasion makes clear that if 20 
years ago, the Fish and Wildlife and/or Congress had had the foresight, 
they could have prevented these Florida and Puerto Rico invasions, 
which now may be irreversible. Passing H.R. 511 without the weakening 
amendments can still help to prevent future similar invasions 
elsewhere.
    4. H.R. 5864. This bill would reform the Lacey Act injurious animal 
listing process, making it faster and more effective, giving the agency 
needed tools and authorities, and bring the listing process from the 
year 1900 when the process was first created, into the modern age. 
Congress should take it up next session and pass it.
                                 ______
                                 
    Dr. Fleming. Yes, I am sorry, sir, you are out of time.
    Mr. Jenkins. OK. Thank you very much.
    Dr. Fleming. But thank you for your testimony. I now 
recognize Mr. Wyatt for 5 minutes, sir.

             STATEMENT OF ANDREW WYATT, PRESIDENT, 
          UNITED STATES ASSOCIATION OF REPTILE KEEPERS

    Mr. Wyatt. Thank you, Mr. Chairman, Mr. Vice Chairman. Good 
morning. My name is Andrew Wyatt, and I am the CEO and 
President of the United States Association of Reptile Keepers. 
We are an organization representing breeders, manufacturers, 
collectors, and scientists who work in the reptile industry. 
Many of our members are small business owners or sole 
proprietors.
    The modern reptile industry has grown and been established 
as a legitimate cottage industry that pumps approximately $1.4 
billion per year into the U.S. economy. Herpetoculture refers 
to the ownership and breeding of captive reptiles and 
amphibians. It evolved from the import and trade of inexpensive 
pet store animals into a sophisticated, non-traditional 
agricultural pursuit, a pursuit that has continued to thrive, 
to provide jobs and to stimulate the U.S. economy, even in the 
face of recent economic downturns. Our members provide high-
quality, captive-bred reptiles to zoos, aquariums, research 
facilities, educators, TV and film, and the pet industry. Some 
specimens sell for tens of thousands of dollars.
    Pythons and boas have been here for decades in well-
established captive breeding programs. Our main issue is with 
interstate transport and the negative impact on thousands of 
well-established small businesses engaged in herpetoculture. 
Banning the trade of these incredibly valuable animals across 
State lines would destroy jobs and livelihoods. This is the 
real job-killer that Oversight Committee Chairman Issa referred 
to during his hearing on the Federal Rule as an example of an 
overzealous, bureaucratic response that is the result of 
politically motivated or biased science.
    H.R. 511, or prior versions of it, have been debated for 
about 5 years now. The Obama Administration enacted a partial 
rule last January that was initiated in early 2008 by the U.S. 
Fish and Wildlife Service. The U.S. Geological Survey science, 
the unsound foundation upon which this bill is based, is widely 
seen as weak and controversial within the scientific community.
    The U.S. Fish and Wildlife Service did no cost benefit 
analysis. The Congressional Budget Office report on H.R. 511 
never made mention of the economic impact to small business 
owners working in herpetoculture, despite the fact that 
Georgetown Economic Services, the only folks who have bothered 
to do any kind of economic research into this, did a 
comprehensive report on the reptile industry in 2011. According 
to GES, listing these nine constricting snakes on the injurious 
wildlife list of the Lacey Act would cost small businesses as 
much as $104 million in the first year, and as much as $1.2 
billion over the next 10 years.
    This action has been opposed by the U.S. Chamber of 
Commerce, the Small Business Administration, the Association of 
Zoos and Aquariums, the Pet Industry Joint Advisory Council, 
and the United States Association of Reptile Keepers.
    The argument by the Administration that invasive Burmese 
Pythons are experiencing a continued population increase and 
are poised to expand their range across the southern third of 
the United States is not supported by evidence. A single USGS 
report erroneously suggests Python populations could expand 
from the southern tip of Florida to the San Francisco Bay. The 
populations of pythons actually peaked in the summer of 2009, 
and then crashed in the winters of 2009 and 2010. The decline 
in python numbers since the 2009 peak has been significant. The 
Florida Fish and Wildlife Commission believes 30 to 50 percent 
of the remaining wild Burmese Python population died in January 
and February of 2010.
    A newly published study in integrated zoology by Dr. 
Elliott Jacobson, et al., is a collaboration of the University 
of Florida, USDA, and real python experts. It calls into 
question the fundamental premise of the USGS climate work that 
pythons can migrate out of South Florida and across the 
southern third of the U.S. This peer-reviewed paper published 
in September 2012 confirms what at least 4 other studies have 
also demonstrated--and I quote--``It appears unlikely that the 
Burmese Pythons inhabiting the Everglades will be capable of 
expanding or becoming established far beyond Southern 
Florida.''
    The majority opinion indicates that, in the wake of the 
python population collapse, the remnant population of feral 
Burmese Pythons in South Florida cannot survive north of Lake 
Okeechobee. Sub-tropical low temperatures, even in South 
Florida, are lethal to tropical pythons. They are not 
physiologically able to survive the cold, and cannot survive in 
more temperate areas of the country. Simply put, when 
temperatures drop, pythons die.
    If there are lessons to be learned here, they are as 
follows: number one, science is a tool to provide insight for 
solving complex problems, not a justification for arbitrary and 
capricious government action to satisfy ideological goals; 
number two, government's role in private business is to protect 
free market competition, not to pick winners or losers based on 
popular preference; number three, the Lacey Act is in dire need 
of fundamental reform to be of any real conservation value.
    In closing, H.R. 511 is a job-killing bill that preempts 
the rights of States to manage their own citizens and affairs 
by seeking to ban the importation and interstate transport of 
nine species of constricting snakes. It is a nanny-state 
legislation at its worst, and will bankrupt thousands of small 
businesses and cost our economy more than $100 million per 
year. Thank you very much.
    [The prepared statement of Mr. Wyatt follows:]

             Statement of Andrew Wyatt, CEO and President, 
          United States Association of Reptile Keepers (USARK)

    Good Morning. My name is Andrew Wyatt and I am the CEO and 
president of the United States Association of Reptile Keepers (USARK), 
a membership organization representing breeders, hobbyists, collectors, 
and scientists who work with or in the reptile industry. Many of our 
members are small businesses or sole proprietors.
    The modern reptile industry has grown, evolved, and has been 
established as a legitimate cottage industry that pumps well over one 
billion dollars per year into the U.S. economy. ``Herpetoculture'' 
refers to the ownership and breeding of captive reptiles and amphibians 
and it has grown into a $1.4 billion industry in this country. It 
evolved from the import and trade of inexpensive pet store animals into 
a sophisticated, non-traditional agricultural pursuit, a pursuit that 
has continued to thrive, to provide jobs and to stimulate the U.S. 
economy even in the face of the recent economic downturn. Our members 
provide high quality, captive bred reptiles to zoos, aquariums, 
research facilities, educators, TV & film, and the pet industry. Some 
specimens sell for tens of thousands of dollars.
    It has been repeatedly stated that H.R. 511 is about stopping the 
importation of these animals. It is not. These animals have been here 
for decades and they are thriving in well-established, genetically 
diverse, private captive breeding programs. A small percentage of these 
animals are imported to the U.S. Our issue is not with importation. It 
is with interstate transport, and the negative impact on thousands of 
well-established small businesses engaged in herpetoculture. 
Importation of these animals could stop tomorrow without any 
significant adverse consequence to the herpetoculture industry. On the 
other hand, the ability to conduct the trade of these incredibly 
valuable animals across state lines would be prohibited costing jobs 
and destroying livelihoods. This is the real ``job killer'' that 
Oversight and Investigations committee Chairman Issa referred to during 
his hearing on the federal rule as an example of an overzealous 
bureaucratic response to a problem that is at most local in nature and 
at worst, the result of politically motivated or biased science.
    H.R. 511, or prior versions of it, have been debated for about five 
years now. The Obama Administration enacted a partial rule last January 
that was initiated in early 2008 by U.S. Fish & Wildlife Service (FWS). 
The U.S. Geological Survey (USGS) ``science'', the unsound foundation 
upon which this bill is based, is widely seen as weak and controversial 
within the scientific community. FWS did no cost benefit analysis. The 
Congressional Budget Office report on H.R. 511 never made mention of 
the economic impact to small business owners working in herpetoculture, 
despite the fact that Georgetown Economic Services (GES) did a 
comprehensive report on ``The Modern U.S. Reptile Industry'' in 2011. 
According to GES, listing these nine constricting snakes on the 
`Injurious Wildlife' list of the Lacey act would cost small businesses 
as much as $104 million in the first year and as much as $1.2 billion 
over 10 years. This action has been opposed by the U.S. Chamber of 
Commerce, The Small Business Administration (SBA) Office of the 
Advocate, Association of Zoos & Aquariums (AZA), Pet Industry Joint 
Advisory Council (PIJAC) and the United States Association of Reptile 
Keepers (USARK).
    The argument by the Administration and FWS that invasive Burmese 
pythons are experiencing a continued population increase and are poised 
to expand their range across the southern third of the U.S., is not 
supported by evidence. A single (USGS) report based on fatally flawed 
presumptions, and that has been castigated within the scientific 
community, suggests python populations could expand from the southern 
tip of Florida, north to the Chesapeake Bay, and west to the Ohio 
Valley, and San Francisco Bay.
    FWS alleges that feral pythons are eating endangered species and 
small mammal populations, while endangering our pets and children as 
they crawl northward. The actual scientific data indicate the opposite. 
There has been a dramatic reduction in the numbers of Everglades 
pythons, and no demonstrable connection with any decline in mammal 
populations. Everglades National Park spokeswoman Linda Friar said park 
biologists have ``no hard science'' demonstrating there has been a 
dramatic reduction in mammal populations.
    The population of pythons peaked in summer 2009. This was followed 
quickly by a population crash in the winters of 2009 and 2010. The 
decline in python numbers since the summer 2009 peak have been 
significant. The Florida Fish & Wildlife Commission believes 30-50 
percent of the remaining wild Burmese python population died in January 
and February 2010.
    A growing body of scientific evidence contradicts USGS climate 
range predictions for feral Burmese pythons in the U.S. Scientists from 
around the world have criticized the USGS work. Barker & Barker gave 
the most pointed criticism stating, ``. . . the scholarship behind it 
is poor, and constitutes either careless disregard or purposeful 
exaggerations . . .''
    Newly published in Integrative Zoology, ``Environmental 
temperatures, physiology and behavior limit the range expansion of 
invasive Burmese pythons in southeastern USA,'' by Jacobson et al., is 
a collaboration by University of Florida, USDA and real python experts. 
It calls into question the fundamental premise of the USGS climate work 
that pythons can migrate out of south Florida and across the southern 
third of the U.S. This peer reviewed paper published in September 2012 
confirms what other studies have also demonstrated: ``. . . [I]t 
appears unlikely that the Burmese pythons inhabiting the Everglades 
will be capable of expanding or becoming established far beyond 
southern Florida''.
    There are at least four other cold weather studies from the 
University of Florida, USDA Wildlife Services, Savannah River 
Ecological Lab and Vida Preciosa International that continue to stand 
in stark contrast to the USGS projections. A report by U.S. Department 
of Agriculture researchers indicates that Everglades Burmese pythons 
displayed no instinct to protect themselves from fatally cold weather 
and most could not survive even the moderately mild conditions of mid-
Florida winter.
    The majority opinion indicates that, in the wake of the python 
population collapse, the remnant population of feral Burmese pythons in 
south Florida cannot survive north of Lake Okeechobee. Sub-tropical low 
temperatures even in south Florida are lethal to tropical pythons. They 
are not physiologically able to survive the cold, and cannot survive in 
more temperate areas of the country. Simply put, when temperatures 
drop, pythons die.
    What remains is a small cabal of scientists drawn to the python 
question by the promise of federal funding [Giant Constrictor Risk 
Assessment Partnership (GCRAP)]. A number of NGO's with close ties to 
the Administration also see an opportunity to further their ideological 
agenda in providing matching funds. It has become popular and 
acceptable to make wild exaggerations about the nature of the issue in 
order to attract attention from the media and politicians. Instead of 
addressing their problems and making corrections, GCRAP has doubled 
down and made even more unsupportable statements. The specter of 
Burmese pythons in the Everglades has played fast and sexy in the 
media. This, combined with a prevailing cultural fear and bias 
regarding snakes, has aided in the politicization of the issue. The 
facts won't support a listing, so making this a political issue is the 
easiest way forward.
    Even if it were conceded that pythons represented a real threat as 
an invasive species in the U.S., which they do not, the idea that the 
Lacey Act could control the spread of animals that have been in the 
U.S. for about 50 years is ludicrous. The `Injurious Wildlife' list is 
supposed to stop these animals at our borders; denying entry and 
preventing proliferation across state lines. Pythons already exist in 
captivity in 49 of 50 states. Never before has the government 
considered adding animals to the `Injurious' list that are so widely 
held by the American public. In fact, even the Department of Interior 
has conceded in private meetings with our industry that the Lacey Act 
is an ``inadequate tool'' to address invasive species issues. The Lacey 
Act has ballooned into a ``one size fits all'' solution to any issue 
that falls within the realm of FWS authority over wildlife. The Lacey 
Act is overly complicated, too far reaching and ineffective. It was 
originally designed to stop poaching. It has grown into a ``one size 
fits all'' solution to wildlife management. It is not the answer to the 
south Florida python question.
    If there are lessons to be learned, they are as follows: 1) Science 
is a tool to solve complex problems, not a justification for arbitrary 
and capricious government action to satisfy political or ideological 
goals; 2) Government's role in private business is to protect free 
market competition, not to pick winners or losers based on arbitrary 
staff or popular preference; and 3) The Lacey Act is in dire need of 
fundamental reform, having become too large, complex and ineffective to 
be of any real conservation value.
    In closing, H.R. 511 is a job killing bill that preempts the rights 
of states to manage their own citizens and affairs by seeking to ban 
the importation and interstate transport of nine species of 
constricting snakes. It is nanny state legislation at its worst that 
will bankrupt thousands of small businesses and cost our economy 
upwards of $100 million per year. When the Obama Administration 
finalized in part the exact same measure as a new regulation last 
January, Chairman Darryl Issa highlighted it in an Oversight and 
Government Reform Committee hearing and called it a ``job-killer''. The 
American government's role is not to pick the winners and losers of 
industry; to the contrary it is the role of government to protect the 
free market dynamic.
    Thank you for this opportunity today.
                                 ______
                                 

      Response to questions submitted for the record by Mr. Wyatt

                   Georgetown Economic Services, LLC

                          3050 K Street, N.W.

                         Washington, D.C. 20007

                       Telephone: (202) 945-6660

                           February 21, 2013

The Honorable John Fleming, M.D.,
Chairman
Subcommittee on Fisheries, Wildlife, Oceans and Insular Affairs
House Committee on Natural Resources
U.S. House of Representatives
Washington, DC 20515

Dear Chairman Fleming:

    We submit this letter in response to questions posed by 
Representative Gregorio Kilili Camacho Sablan (D-MP) about our May 12, 
2011 report, ``The Modern U.S. Reptile Industry.'' You forwarded Rep. 
Sablan's questions to the United States Association of Reptile Keepers 
(``USARK''), and they forward them to us. USARK also requested that we 
address criticisms of the report made by Dr. Timm Kroeger \1\ and Mr. 
Peter Jenkins.\2\ We respectfully request that this letter and its 
attachments be made part of the hearing record.
---------------------------------------------------------------------------
    \1\ See: Dr. Timm Kroeger, letter to the Office of Management and 
Budget, commenting on behalf of The Nature Conservancy about the U.S. 
Fish and Wildlife Service's Large Constrictor Snake Proposed Rule, RIN 
1018-AV68, December 2011.
    \2\ See: Testimony of Peter Jenkins on behalf of the Center for 
Invasive Species Prevention, before the U.S. House of Representatives, 
Natural Resources Subcommittee on Fisheries, Wildlife, Oceans and 
Insular Affairs with respect to H.R. 511, November 2012.
---------------------------------------------------------------------------
GES's Report on the U.S. Reptile Industry
    Georgetown Economic Services, LLC (``GES'') was asked by USARK to 
prepare a report that outlined the size, scope, and flow of trade of 
the U.S. reptile industry. The report also, estimated the impact to the 
U.S. reptile industry of listing nine specific constrictor snakes as 
injurious wildlife under the Lacey Act. We undertook that assignment in 
June 2010 and our completed May 12, 2011 report outlined our 
conclusions.\3\ We found that:
---------------------------------------------------------------------------
    \3\ A copy of the Report is attached.
---------------------------------------------------------------------------
        <bullet>  The U.S. reptile industry encompasses a vast number 
        of participants including pet owners, hobbyists, breeders, 
        importers, exporters, wholesalers, pet store proprietors, pet 
        show promoters, entertainers, veterinarians, and manufacturers 
        of pet food and ancillary pet products.
        <bullet>  In 2009, businesses that sell, provide services for, 
        and manufacture products for reptiles earned revenues of $1.0 
        billion to $1.4 billion.
        <bullet>  In 2009, 4.7 million U.S. households owned 13.6 
        million pet reptiles. Reptile owners are spread throughout the 
        United States without a concentration in any one area of the 
        country.
        <bullet>  Reptile businesses can be found throughout the United 
        States, although reptile importers are more densely 
        concentrated in Florida and California than in other states.
        <bullet>  The vast majority of reptile businesses are small, 
        individual or family-run businesses.
        <bullet>  With regard to the listing of the nine constrictor 
        species under the Lacey Act, the report found:
                <bullet>  The industry, and snake breeders and sellers 
                in particular, will experience significant economic 
                losses in the short-term. We estimate that the 
                reduction of industry revenues will run between $76 
                million to $104 million in the first year.
                <bullet>  Economic loss to the industry over the first 
                ten years following an enactment would run between $505 
                million to $1.2 billion in lost revenues, assuming 
                historical industry sales growth rates.
                <bullet>  Even assuming no growth, the economic loss 
                over the first ten years following an enactment would 
                run between $372 million to $900 million in lost 
                revenues.
Criticisms of GES's Report
    We summarize and respond to questions and criticisms of the report 
made by Representative Rep. Sablan, Dr. Kroeger, and Mr. Jenkins below.
    The report ignores likely substitution effects on the part of the 
reptile industry, which leads to a likely large upward bias in the 
resulting estimates of negative economic impacts from the proposed 
rule. (Dr. Kroeger)
Response:
    It was beyond the scope of the project to estimate secondary 
effects of the proposed listing. However, from our discussions and 
interviews with members of the reptile industry we found that many of 
the nine proposed snake species are a sideline and a passion for snake 
hobbyists and reptile business owners. Many of the people that breed 
these snakes do so because they are deeply interested reptile husbandry 
and they are fascinated by these creatures. Breeders typically have 
spent many years selectively breeding particular snake coloration 
patterns and body types, known in the reptile community as morphs. Even 
if the breeder of a now banned species wanted to develop morphs in 
another snake species, that development will take a number of years. In 
addition, the proposed ban itself has a chilling effect on breeders 
willingness to invest in a new morphs. Therefore, the substitution 
effect will be de minimus.
    Losses in interstate trade in the nine species, which will be 
banned under a Lacey Act listing, likely would be counteracted through 
an increase in the intra-state production and trade of those species. 
(Dr. Kroeger)
Response:
    As stated in our report, the majority of reptile sales are made to 
out-of-state consumers.
    Furthermore, reptile buyers and sellers are increasingly turning to 
the Internet and reptile trade shows to buy and sell snakes. Therefore, 
not only will a listing cut sellers off from many of their customers, 
it will shut down an avenue of growth for these businesses.
    The Internet allows businesses to reach potential customers from 
all over the United States, (or Canada, or the rest of the world for 
that matter). To draw large crowds, trade shows (even regionally 
oriented shows) typically depend on reptile breeders and sellers from 
many different states at a minimum. In the most popular shows, breeders 
come from across the United States. Thus, a prohibition on inter-state 
and international sales will mean that breeders will not have access to 
the critical number of customers needed to justify breeding the 
affected constrictors.
    The listing will also balkanize the snake sector of reptile 
industry for the listed species. Instead of marketing to customers in 
North America or around the globe, the listing would create separate 
markets in each state. It is not clear that the breeding industries of 
many states could survive without inter-state sales.
    The notion that intra-state sales of the listed species will be 
greater after the listing requires that intra-state consumers of the 
listed species increase the purchases of the listed snakes. We do not 
quarrel with the proposition that the listing will decrease supply of 
listed snakes in, say, Illinois, since all out-of-state suppliers are, 
by law, excluded from the new the new Illinois intra-state ``market.'' 
Ceteris paribus, the reduction in supply would result in higher prices 
and less unit sales (i.e., trade). However, because the Lacey Act does 
not discriminate between breeders and pet owners, it is also illegal 
for pet owner to transport a listed species across states lines. That 
fact will decrease demand for the listed species, especially given that 
a significant number of Americans move across state lines each year. 
Ceteris paribus, the reduction in demand will also result in reduced 
unit sales.
    In short, it is unlikely that there will be increased intra-state 
sales to offset the loss of inter-state sales.
    The report incorrectly applies the term ``economic losses'' when 
referring to what in fact are reductions in revenues for this small 
segment of the reptile industry. This is not merely a problem of 
semantics that is likely to mislead many readers of the report. (Dr. 
Kroeger) Response:
    The report was upfront in both its methods and its conclusions. 
Each time the report referred to economic impact or economic loss, the 
report explicitly stated that the losses and impacts that it was 
referring to concerned revenues. To characterize the report as 
misleading is itself misleading. Below we give a few examples:
        ``The industry, and snake breeders and sellers in particular, 
        will experience significant economic losses in the short-term. 
        We estimate that the reduction of industry revenues will run 
        between $76 million to $104 million in the first year.'' 
        (Emphasis added) The Modern U.S. Reptile Industry, p. ii.

        ``Total reptile revenues, including reptile sales as well as 
        ancillary product sales, range from $1.0 billion to $1.4 
        billion per year. Of these revenues, the listed constrictors 
        account for approximately $75.6 million to $103.5 million per 
        year. The first-year economic impact of the proposed rule 
        assuming the Low-Impact Scenario is $42.8 million to $58.7 
        million in terms of lost revenues.'' (Emphasis added) Id., p. 
        71.

        ``Since the High-Impact Scenario posits that all revenues that 
        the constrictors generate will be lost, the first-year economic 
        impact of the proposed rule is $75.6 million to $103.6 million 
        in terms of lost business revenues.'' (Emphasis added) Id., p. 
        72.

        ``The present value of the lost revenues is an estimate of the 
        lost economic value associated with the listing of nine 
        constrictors as injurious wildlife under the Lacey Act.'' 
        (Emphasis added) Id., p. 74.
    The report uses an inappropriate discount rate that by itself leads 
to a substantial (close to 20 percent) overstating of the projected 
future costs of the rule. (Dr. Kroeger)
Response:
    Dr. Krueger in his comments notes that we used a 3.25% discount 
rate. He argues that a more appropriate rate would be 7%. Dr. Krueger 
states:
        The correct rate to use is the average rate of return that the 
        foregone profits could have and would have achieved. The 
        historic (sic) average rate of return in the United States--
        approximately 7 percent--commonly is the rate used in such 
        analyses, and is the default discount rate that the Office of 
        Management and Budget requires federal agencies to use in 
        benefit-cost analyses.
Dr. Kruger cites an Office of Management and Budget document, dated 
September 2003 for his authority. \4\
---------------------------------------------------------------------------
    \4\ See: Office of Management and Budget, 2003, Circular A-4--
Regulatory Analysis, Sep. 17, 2003. http://www.whitehouse.gov/sites/
default/files/omb/assets/regulatory_matters_pdf/a-4.pdf.
---------------------------------------------------------------------------
    We do not dispute Dr. Kruger's suggestion that the ``correct rate 
to use is the average rate of return that the foregone profits could 
have and would have achieved.'' We do not agree however that a 7% 
discount rate reflects the ``average rate of return on foregone 
profits'' in 2010, 2011, 2012, or today. We contend that the discount 
rate of 3.5% used in the report is appropriate. By suggesting that 7% 
is an appropriate discount rate, Dr. Kroeger effectively argues that 
over the next ten years it is reasonable to expect a 7% rate of return 
on a relatively safe investment. A 7% rate may have been justified in 
when higher interest rates were offered--such as those offered in 
2003--but is not appropriate today.
    Since we provide all the information to estimate the cost of the 
proposed listing, anyone is free to recalculate those costs using 
whatever discount rate they choose.
    The report's high-end loss estimate assumes that all sales of these 
snakes would stop, even though your own data shows that INTRA-state 
commerce, which would still be legal if H.R. 511 passed, account for 
almost 40% of sales. Doesn't that make the estimate misleading? (Rep. 
Sablan)
Response:
    The estimate of the impact of listing all nine snake species under 
the Lacey Act required a prediction as to what business decisions 
participants of the reptile industry would take in reaction to the 
listing. No one can predict the future with any accuracy. However, when 
asked about the actions they would take in the face of a Lacey Act 
listing, many of the business owners that we talked to stated that they 
would have to shut down. Others were certain that, without inter-state 
sales, they could no longer justify the costs of breeding these snakes.
    Instead of endorsing one prediction of the state of the future 
after a Lacey Act listing, we sought to give a range of possible 
impacts of the listing. We defined a low-impact scenario where ``. . . 
it is posited that some (but not all) breeders will continue to breed 
the listed constrictors and to make intra-state sales and (for those 
who can) foreign sales if the proposal were to be finalized.'' Report, 
p. 70. We defined a high-impact scenario based on the possibility ``. . 
. that the combination of higher per-unit costs of breeding and 
maintaining the listed constrictors as well as the reduced market for 
the banned snakes (and the concomitant lower prices) make it 
unprofitable to breed, keep, and sell these snakes.'' Id. Including a 
range of possible impacts is standard procedure in economic model and 
is not misleading. The actual impact is likely between the low-impact 
scenario and high-impact scenario.
    The report relies extensively on unreferenced data, i.e., ``fact'' 
assertions for which no source whatsoever is identified. It relies 
heavily on data for which the only source is an anonymous ``personal 
communication'' with unnamed people in the reptile industry. In short, 
the data sources cannot be checked. (Mr. Jenkins)
Response:
    All assertions made in the report have citations. The report 
includes 193 footnotes and a five page appendix explaining the process 
by which financial data about the industry was collected. While some 
(but not all) names of business owners that we interviewed are omitted, 
letting interview subjects remain anonymous allowed us to gather the 
most comprehensive database of financial information on reptile 
businesses currently available.
    The financial information about the industry cited in the report 
comes from first hand interviews and surveys with a wide range of 
industry participants. Many of the people that we interviewed and 
surveyed asked to remain anonymous. Without anonymity we would not have 
had such extensive industry participation. This industry perspective 
was crucial in allowing us to understand the size and scope of the U.S. 
reptile industry.
    Many studies that we reviewed on the industry, including the 
USFWS's economic impact analysis, complain about the lack of public 
information about the economics and dynamics of the U.S. reptile 
industry. Our report provides a reference source on the industry for 
the public and for legislators.
    In addition to interviews, we conducted an extensive review of the 
literature about reptile businesses, reptile hobbyists, and the 
economics of the reptile industry. Secondary sources cited in the 
report include:
        <bullet>  United States Fish and Wildlife Service, Law 
        Enforcement Management Information System (``LEMIS'') data.
        <bullet>  2009/2010 American Pet Products Association National 
        Pet Owners Survey
        <bullet>  Reptiles Magazine
        <bullet>  Pet Product News
        <bullet>  SEC filings
        <bullet>  Louisiana Department of Agriculture & Forestry, 
        Turtle Farm Records Database
        <bullet>  The 2007 American Veterinary Medical Association's 
        U.S. Pet Ownership & Demographics Sourcebook
        <bullet>  And numerous newspaper and trade paper articles.
The author is not a Ph.D. and the report was not peer-reviewed (Mr. 
Jenkins)
Response:
    This criticism stems from a misreading of the title page of our 
report. The report had two authors, Dr. Robert N. Fenili and Mr. Ariel 
H. Collis. Dr. Fenili has a Ph.D. in economics. However, the authors 
disagree strongly that a Ph.D. (or a M.A. or B.A.) is required to 
comment or to express an expert opinion in a legislative proceeding.
    As to peer review, the report was written for USARK not for 
academic journal. However, the legislative process has allowed our work 
to be scrutinized by third party reviewers, as evidenced by the 
comments of Dr. Kroeger and Mr. Jenkins. This process is akin to peer 
review.
    Thank you for considering our comments.

                               Sincerely,

Ariel Collis                         Robert Fenili, Ph.D.
Economist                            Assistant Director for Economic 
Georgetown Economic Services             Analysis
                                     Georgetown Economic Services
                                ------                                

    Dr. Fleming. Yes, thank you, Mr. Wyatt. Thank you, panel, 
for your statements.
    At this point we will begin Member questioning of the 
witnesses. To allow all Members to participate, and to ensure 
we can hear from all of our witnesses today, Members are 
limited to 5 minutes for their questions. However, if Members 
have additional questions, we can have more than one round of 
questioning, and usually do.
    I now recognize myself for 5 minutes.
    Dr. Barr, I understand you are a biologist.
    Dr. Barr. That is correct.
    Dr. Fleming. Yes, go ahead and move that to you, because I 
have several questions for you.
    You have a Ph.D. in biology.
    Dr. Barr. That is correct.
    Dr. Fleming. You know, I wish I had a dollar for every--I 
used to say a dime, but with inflation I say a dollar now--I 
wish I had a dollar for every bill that we have testimony in 
which somebody claims that global warming is the reason why we 
should move forward on the legislation. The truth is there is a 
consensus out there right now that, regardless of what may have 
happened before, over the past 16 years we have had temperature 
stability for our globe. So, I think the worry, the threat that 
in the next few years we are going to have reptiles on our 
doorsteps here in Washington, D.C. is really a little bit 
overblown. I think our national debt of $16.3 trillion is 
certainly much more immediate.
    But my question to you is this. I heard you mention 
ectothermal. Snakes are ectothermal. Reptiles are. We used to 
say ``cold blooded'', ``warm blooded.'' Is that pretty much the 
same thing? Ectothermal would be cold blooded, what we used to 
call cold blooded? And warm blooded would be, what, 
endothermal?
    Dr. Barr. That is correct.
    Dr. Fleming. So that means that snakes, reptiles in 
general, have great difficulty regulating their body 
temperature, and they are very subject to fluctuations in 
temperatures in the environment.
    Dr. Barr. That is correct.
    Dr. Fleming. So, as I understand it today, what we are 
saying is that if temperatures approach 60 degrees and lower, 
that not only does a snake have difficulty eating and moving--
because as those temperatures drop, he has more difficulty 
surviving, digesting, and it is unlikely to survive.
    Dr. Barr. That----
    Dr. Fleming. Is that correct, sir?
    Dr. Barr. That is correct.
    Dr. Fleming. So, that being the case, it really seems that 
whatever threat may be in Florida, that there is very little 
worry that that threat is going to occur anywhere else. As I 
understand it, we are talking about the Everglades, which is 80 
miles south of Miami. So we are talking about the very southern 
tip of the United States.
    Well, let me ask you this. Those that are supposed to be 
invasive species in the Everglades, how did they get there?
    Dr. Barr. That is a good question. I do not know.
    Dr. Fleming. The media would have us believe that pet 
owners are turning their snakes loose. Perhaps someone even in 
Utah may load their snakes up in a van, I guess, and drive down 
to the Everglades to dump them. Do we have evidence of that?
    Dr. Barr. No. That seems unlikely.
    Dr. Fleming. OK. So, would it be more likely that such 
snakes, such reptiles, would get there perhaps through more 
conventional ways, perhaps onboard a water vessel, or something 
like that, that is just simply accidental?
    Dr. Barr. That is a possibility.
    Dr. Fleming. So, I certainly think that before we go after 
pet shops and pet owners, that we should consider those things.
    Dr. Barr, what has been the impact of the Lacey Act listing 
of the Burmese Pythons and the three other constrictor snake 
species by the Obama Administration earlier this year?
    Dr. Barr. Are you asking in terms of the scientific 
community or the television community?
    Dr. Fleming. Yes, Mr. Wyatt.
    Mr. Wyatt. Yes, I would be happy to elaborate on that. What 
has happened, not only with the four snakes that were actually 
listed by U.S. Fish and Wildlife Service, but de facto, the 
five that have been left dangling out there with a partial rule 
having been made, but the final disposition of the remaining 
five has put the industry under incredible pressure. And the 
animals that have actually been listed have all but lost all 
value, and people have been going bankrupt and forced to make 
hard decisions about what to do with their animals. And even 
with the animals that were not listed, like Ms. Sutherland 
said, the values of these animals dropped.
    If you are a rancher in Louisiana, and you are told one day 
that you can no longer sell your cattle out of Louisiana, that 
you can only sell them within the State, then it is going to 
put you in a very difficult position, and you are going to have 
to make some hard business decisions on how to feed those 
animals and take care of those animals when you have now lost 
all value.
    Dr. Fleming. So certainly it has been a significant 
negative impact on small businesses during a time that we can 
least afford it, with our economy being the way it is.
    Well, I thank you. And the Chair now yields to Mr. Sablan, 
the Ranking Member, for 5 minutes for questions.
    Mr. Sablan. Yes. Thank you very much, Mr. Chairman. And if 
there is no objection, Ms. Bordallo has something to go to, and 
I will yield my 5 minutes to her, and then I will take her 
time.
    Dr. Fleming. OK. Thank you, sir. Ms. Bordallo.
    Ms. Bordallo. I thank Ranking Member Sablan for yielding 
his time, and also to you, Mr. Chairman.
    I would like to underscore the importance of addressing 
invasive species issues early, given the experience that we 
have had in the Territory of Guam with the brown tree snake, 
although they are not a public safety hazard. The invasion by 
these snakes has led to changes in our environment, destroying 
native bird, bat, and lizard populations, and leading to 
changes throughout the ecosystem.
    The economic impact is also high. Every year, the Federal 
Government must spend millions and millions of dollars 
preventing the spread of snakes to other islands, as well as on 
programs to restore habitats and to recover species.
    Now, while the presence of the brown tree snake on Guam has 
been devastating, there is no reason to believe that the 
presence of giant constrictor snakes may be far more 
destructive. We on Guam wish attention and oversight had been 
paid to invasive species before the introduction of the brown 
tree snake. Invasive species are a problem that should be 
addressed early, or else spend decades and millions of dollars 
on eradication programs.
    Now, I have a couple of questions for Mr. Kostyack. Mr. 
Wyatt and Dr. Barr both assert--and this is what the Chairman 
was talking about--both assert that when temperatures drop, 
pythons die. Well, couldn't they do other things, like move or 
adapt or take shelter?
    And also, Mr. Heflick also mentions that last year only 46 
invasive Burmese Pythons were caught in Florida. Now, don't you 
think that there are more in number, given that they are 
naturally camouflaged and good at hiding, and that a female can 
lay over 100 eggs?
    Mr. Kostyack. Thank you for the question, Congresswoman. We 
have been in daily conversation with the leading researchers on 
this subject, the folks who have collected all the field data. 
And what they tell us is that, yes, there is a die-off when you 
have a cold snap. But let's say the die-off results in 30 
percent mortality. What happens to that remaining 70 percent? 
And that is the answer to your question, which is those snakes 
have found a way to survive, and it is generally through 
hibernation or basking or some other behavioral action that 
enables them to avoid that die-off.
    And so, that is a well-known biological phenomenon. It 
applies to tropical snakes, it applies to other snakes. And 
this is how snakes survive all across the Continental U.S. They 
have these abilities to get underground and get safe.
    And so, there is absolutely no reason to believe that these 
pythons are limited to Southern Florida. The USGS, the U.S. 
Fish and Wildlife Service, the agencies that are charged with 
leading our Federal Government's presence on science and 
wildlife science, are unanimous in saying that these species 
are injurious, and that their range extends beyond South 
Florida, their potential range.
    Ms. Bordallo. Thank you. Thank you very much. The other one 
is to you, Mr. Jenkins. I have just one quick question. What 
percent of the reptile market do these snakes represent? Is 
there evidence that people could find good substitutes, and 
that businesses would not be severely harmed?
    Mr. Jenkins. Thank you, Ms. Bordallo. That is a great 
question and I appreciate it. And as I said in my statement, 
there are at least 750 different reptile species that are 
imported in the entire reptile trade. Now, we are talking about 
limiting maybe five total. But only two or three of those are 
actually important, commercially. There are many safer 
alternatives. And that is what this legislation is all about. 
That is what the Lacey Act is all about. It doesn't even 
prohibit in-state ownership. It doesn't prohibit people from 
owning these snakes. It just says we are going to slowly wean 
these species out of the system by prohibiting international 
imports and interstate commerce.
    So, there are many alternatives. It's a very slow-acting 
law. It gives Ms. Sutherland and her business time to react, 
time to look at the alternatives. And we know, from her 
website, that they already breed several other snake species 
that are perfectly approved and not a problem. So we are 
talking about limiting a small portion of their business. These 
are adaptable businesses. They can breed other species.
    Ms. Bordallo. Thank you very much. And I want to thank the 
Ranking Member, Mr. Sablan, for yielding his time. Mr. 
Chairman, I yield back.
    Dr. Fleming. I thank the gentlelady. Mr. Southerland is now 
recognized for 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman. Mr. Kostyack, I 
am curious. You made reference to the amendments. And the 
second amendment that you made reference to, you had an issue 
with, the difficulty or the burden that the government would 
have to prove someone guilty, that is a fundamental 
disagreement that I have with your problem. In this country you 
are innocent until you are proven guilty.
    And so, explain that. Why should it be easy for the 
government, which has proven not to be able to regulate itself 
very well, have an easier time of violating the civil rights or 
any rights, legal rights, of any citizen in this country? And 
why should that bar be lessened or lowered?
    Mr. Kostyack. Thank you for the opportunity to elaborate, 
Congressman. I am an attorney. And for a good number of years I 
was working in the judiciary as well as in private practice. 
And environmental laws have different standards of proof. There 
is virtually no environmental law that says the only way to 
hold somebody accountable is to prove that they knew they were 
in violation of the law. That was the knowing standard that was 
imposed by the Judiciary Committee. If you talk to anybody who 
prosecutes any law, they say that essentially takes us off of 
the ballfield.
    And now, if there was an opportunity for civil enforcement, 
that would have a lower burden of proof, and then put the 
knowing standard at the criminal side. That would be one thing. 
But if the only tool you have in your toolbox is enforcement of 
the law by proving that somebody knew they were in violation of 
the law, that essentially makes it virtually impossible to 
enforce.
    Mr. Southerland. Now, I disagree with you on that. And I am 
not an attorney, but God knows I have paid enough of them in my 
lifetime in our businesses to try to protect us from 
overzealous regulators. All of our congressional offices are 
pounded each week about how the EPA, for example, does not have 
the burden of proof. And they are absolutely, in my opinion, 
the greatest threat to free enterprise in America today.
    But that is not why we are here, but I appreciate it. I 
mean I disagree with you in that regard.
    One of the things I am interested in going over, I guess, 
Mr. Jenkins you represent a lot of different organizations. And 
in your testimony you were concerned about the 17 deaths and 
the families that have experienced these deaths. And you seem 
very sympathetic to them.
    I am curious if the organizations that you represent--what 
kind of efforts have your groups been involved in to expand 
hunting season for whitetail deer? Because I know, obviously, 
we have hunting seasons that take place and the time varies 
from State to State to State. But I don't know too many hunters 
that wouldn't like a couple extra days.
    In your organizations is there an effort to expand--and I 
am going somewhere with this, but I know I have 1 minute--but 
do you know of efforts to expand hunting season?
    Mr. Jenkins. Thank you for the question. My organization 
only focuses on invasive species prevention. I do consulting 
with these other groups. So I can't speak for them on the 
whitetail deer and hunting season and all that sort of thing.
    Mr. Southerland. Right.
    Mr. Jenkins. It is a great topic. But I am going to, if I 
can----
    Mr. Southerland. Well----
    Mr. Jenkins [continuing]. Turn it over to Mr. Kostyack, 
because he knows more about it.
    Mr. Southerland. OK. Go ahead.
    Mr. Kostyack. So if your question is do we recognize that 
there is, in some places, an overpopulation of whitetail deer, 
and additional hunting may be necessary? Is that your----
    Mr. Southerland. Well, I want you to be consistent. And I 
find that from so many--and I have 30 seconds, so I will just 
surmise where I am going here.
    In the year 2000, there were 247,000 automobile accidents 
with whitetail deer, resulting in over 200 human deaths. I have 
not heard any environmental organization coming in here with 
the premise that you just laid before this panel today, 
expanding deer season. And I have never heard an 
environmentalist come in here and have any concern at all for 
the 200 families that had to bury their loved ones because of 
overpopulated deer herds. It is inconsistent.
    Mr. Kostyack. Well, my organization does share that 
concern.
    Mr. Southerland. I am sorry?
    Mr. Kostyack. We do share your concern about that. In fact, 
we have a large number of hunters within our organization who 
work at the State level, where the seasons are set, not at the 
Federal level, to make sure that the right length of season is 
established. And so that----
    Mr. Southerland. Well, but one could surmise that if we 
have 200 people dying in 1 year from accidents, that the 
hunting seasons aren't long enough. Are those organizations 
advocating for longer hunting seasons?
    Mr. Kostyack. Often times they do, yes. I mean I would 
refer you to Florida Wildlife Federation, our State affiliate, 
who works on those issues on a daily basis, there is a lot of 
science that goes behind setting the seasons. And that is an 
important question. But it is not typically something that 
Congress wrestles with.
    Mr. Southerland. No, I----
    Dr. Fleming. OK, the gentleman's time is up. The Chair now 
recognizes Mr. Sablan for 5 minutes, sir.
    Mr. Sablan. Thank you very much, Mr. Chairman. I like Tom 
Rooney, and now I know exactly why. I must say this much, that 
he would not have gone to the trouble of developing this bill 
and introducing it if he had no serious concerns about these 
snakes in Florida.
    And, Mr. Chairman, I have a very high regard also for my 
Chairman here. But again, if anybody has any question about 
climate change, if anybody questions the scientific facts, I 
have a place in Micronesia, where I am from. Come over. I will 
show you about climate change, about rising sea levels, and the 
change it is making to the islands. And if you doubt the 
science, then I have the physical evidence. But I am going to 
stick to the issue here.
    Mr. Kostyack--did I say that correct?
    Mr. Kostyack. Yes.
    Mr. Sablan. Yes, and you are the lawyer, so I have to be 
careful here with my questions now.
    Why is it so important that we prevent non-native species 
from being introduced in the first place? The Lacey Act, it is 
an important tool to prevent biological invasions. And can you 
speak to why the additional amendment to this bill by the 
Judiciary Committee harms wildlife and the economy?
    Mr. Kostyack. Thank you for the opportunity to elaborate on 
this, because, really, this hearing is going to the basic 
question of are we going to have a Lacey Act that has any 
ability to protect this country.
    If we were sitting in the House Armed Services Committee, 
and we were debating whether or not to have a no-fly zone for 
terrorists, there would be no dispute whatsoever. They 
represent a threat, a harm to this country, and we have a 
right, as a country, to defend our borders and a duty to defend 
our borders. It is the same issue with the Lacey Act. We have 
scientists who go through very rigorous processes to reach the 
conclusion that species are injurious to this country, and put 
forward that decision. And, therefore, we have a duty to follow 
through and to protect our people, protect our wildlife, and 
protect our rich, national heritage.
    And so, that is the best strategy we have in this country 
for protecting our wildlife and habitat. It is not waiting for 
the species to arrive, and then spending millions of dollars 
trying to eradicate them. We know that is extremely costly and 
very unlikely to succeed. Look what is going on with feral 
pigs, with nutria, the list goes on and on. The brown tree 
snake.
    We have so many invasive species in this country that are 
causing billions of dollars of damage to our economy. The zebra 
mussel in the Great Lakes.
    Mr. Sablan. Yes.
    Mr. Kostyack. The list goes on and on. And there is no 
strategy for eradicating them. So if we now have an opportunity 
to take a look and say, ``What does the next wave look like? 
Are we going to do something about it when it is not expensive 
to us, and much more likely to be effective?'' And the answer 
is, ``Absolutely, yes.''
    The Lacey Act is the best tool we have for controlling 
invasive species.
    Mr. Sablan. Right. And, if I may also say, Mr. Wyatt stated 
earlier that because of the cold winters of 2009 and 2010, 30 
to 50 percent of the invasive Burmese Python population in 
South Florida died. But by your own arithmetic or math, 50 to 
70 percent of these snakes, which are not supposed to be there 
in the first place, survive. Right?
    So, Mr. Kostyack, what would happen if we had a string of 
warmer-than-average winters? Isn't it possible that 30 percent 
won't die, and 100 percent will survive, and each one would 
have, like Ms. Bordallo said, 50 baby snakes, I mean calculate.
    Mr. Wyatt. That is actually right.
    Mr. Sablan. No, I am asking him a question. Not you, Mr. 
Wyatt.
    Mr. Kostyack. So, briefly, my organization considers 
climate change to be one of the largest threats to wildlife and 
people in this country. And so we are well versed in the 
science. And the trend line we have seen in the past 20 years 
is going to continue, which is increasingly winters are going 
to become warmer. And globally, temperatures are going to 
continue to increase.
    And so, we can be smart, and start preparing for that 
change, or we could put our head in the sand.
    Mr. Sablan. Yes, yes.
    Mr. Kostyack. If we want to prepare for that change, we 
have to understand that the range of species that have 
historically been tropical will continue to shift northward. 
And I would be very happy to provide----
    Mr. Sablan. And I am going to make a fool out of myself 
here. Here we have actually invited invasive species. And at 
the same time we are trying to close the border and tell 
everybody who is here, undocumented aliens, to leave. I am just 
confused here. Maybe it is because I am from the Islands and I 
am naive about national politics. But welcome to the pets, I 
mean the invasive animals, and kick out the human beings. My 
time is up, Mr. Chairman. I made a fool out of myself already.
    Dr. Fleming. The gentleman yields back. If the panel is up 
for it, we will go through another round of questions. And we 
appreciate your patience with us.
    Let me say parenthetically, with regard to a statement that 
Mr. Southerland made about the laws and the burdens of the law, 
it is interesting. We had hearings last year, I believe it was, 
on what happened to Gibson Guitar, who had $50 million worth of 
wood confiscated as contraband. No charges were filed. The 
country of origin of the wood said no laws were broken, no one 
ever actually claimed a law was broken. And by law there was no 
access to the court by Gibson. And again, in a down economy, 
the last thing in the world we want to be doing is harming our 
companies and corporations.
    With respect to Florida, Mr. Heflick, what has the State of 
Florida done to address this? And before you answer, I want to 
circumscribe the fact here that, regardless of all the 
discussion about snakes hibernating or they can find shelter 
and all of this, the truth is, that even though there may be 10 
or 20 percent of offspring that may be a little heartier, all 
they have to do is to travel to a slightly cooler climate, and 
they are going to die, too. So there may be a buffer zone 
there, but it is very clear these snakes, at the present time, 
are very much restricted to the very lowest latitude of the 
United States. And no one, despite all the rhetoric today, no 
one has produced any proof that these snakes can migrate 
northward and survive.
    So, it is important to know what Florida is doing and has 
done. Yes, sir.
    Mr. Heflick. The Florida Wildlife Commission, which is 
charged with that, has done a lot. And I actually worked hand 
in hand with them in putting out these new regulations which 
consist of increased security for cages. There is a special 
permit now required for these animals, in that you must be an 
approved facility, an approved breeder, to be able to work with 
these animals. There are transport regulations now that we have 
stepped up, including double-bagging and putting into an 
additional container that is secured, in case there is a car 
accident, or the like.
    They have really gone, really, over and above to get a 
handle on this. And it has really bottlenecked the market of 
these snakes down to about 95 percent. You don't see the 
commerce in them, you don't see the trade. The value is down. 
So it has really hurt the market. But Florida, which is 
obviously ground zero and the epicenter of this, has taken 
great strides in increasing the regulations and controls on 
these species.
    And you are right about the buffer zone. You are talking to 
somebody who has had his boots on the ground. And I apologize 
to the other witnesses here who are using other people's 
testimonies within theirs, but in 2009, 2010, that winter, we 
saw countless carcasses. Carcass after carcass after carcass 
after carcass of these Burmese Python dead in the Everglades. 
And the figures that they are putting out there, 30 to 50 
percent, I have firsthand knowledge of those. And those were 
put out to be conservative.
    And really, when you look at the studies, my study, 100 
percent of the animals dead in 4 days. When you look at Frank 
Mazzotti, who is one of the individuals that does the tracking 
of these Burmese Pythons and some of the vast majority of the 
studies on them, 90 percent of his animals that were tracked 
during that winter, dead. And the one that did survive was 
because they found it before it could die, they brought it in, 
and then later on, subsequently, it died from secondary causes 
of the cold.
    So, these numbers that you are throwing out about 40 
percent, 30 percent, are conservative, at best.
    Dr. Fleming. Right. Well, I would love to hear more, but 
for sake of time let me ask you another question.
    Let's say that I own a constrictor in Florida, and it is 
too big, I can't handle it. What can I do, as a pet owner or a 
pet store owner?
    Mr. Heflick. We have a 24/7 amnesty program, where 
designated locations--I, myself, am one that has been certified 
by FWC--anybody at any time, no questions asked, can donate 
that animal to get it into a safe facility. And it is working. 
I get those----
    Dr. Fleming. All right.
    Mr. Heflick [continuing]. And other facilities do, also.
    Dr. Fleming. And let me follow up with that. How many 
people, if any, do you see driving from other parts of the 
country, dumping their snakes in the Everglades?
    Mr. Heflick. There has never been one record, even 
anecdotal, of someone being arrested, pulled over, being 
caught, filmed, videoed, you name it, of dumping a snake in the 
Everglades.
    Dr. Fleming. Well now, sir, are you sure there haven't been 
snakes to crawl from Utah all the way down to the Everglades? 
Perhaps that could happen.
    Mr. Heflick. That is a long trip.
    Dr. Fleming. I understand. Well, thank you. And my time is 
out. And Mr. Southerland--I recognize you for 5 minutes.
    Mr. Southerland. Thank you, Mr. Chairman. You know, you 
made a point about Gibson and the hearing we had. I know over 
in Agriculture we had--a few years ago we had--someone died 
from eating a pepper. And so the FDA shut down pepper farmers 
down in my district, peppers that had already been harvested or 
they were harvesting them at the time. And they made them 
destroy their entire harvest.
    And so, they were not allowed to file any insurance claims, 
and so they were just out an entire harvest, an entire year. 
Many of these farmers went out of business only to find out 
that the pepper came from Mexico. Those farmers had no 
recovery. Ms. Sutherland, you have a small business. I have a 
small business. And much of the Federal Government could care 
less about your business. It could care less about our 
business.
    I appreciate Minority witnesses here today and your trust 
in giving the Federal Government greater latitude and greater 
ability to be able to put downward pressure on freedom. But if 
I have learned anything over the short 23 months that I have 
been here, it is that a government big enough to meet all of 
your needs is a government big enough to take everything you 
own. Welcome to the nightmare that one of our founding fathers 
quoted 240 years ago.
    This appears to me, Mr. Chairman, to be a solution looking 
for a problem. This is ridiculous. With all the problems we 
have in this country, I am dumfounded. I mean, we have $90 
trillion of unfunded mandates in our entitlement programs. I 
don't want to diminish what you do, but we got bigger fish to 
fry here, OK, than to target businesses, small businesses like 
Ms. Sutherland's and other small businesses around this 
country. It is open season on business. It is open season on 
enterprise. It is open season on freedom. And I think we can 
make quick work of this. This is a solution looking for a 
problem.
    I yield back, which is very rare, Mr. Chairman.
    Dr. Fleming. Yes. Indeed it is, Mr. Southerland, to yield 
back early like this. But you owe it back to us, anyway, so we 
will take it.
    Mr. Southerland. Add it to my account.
    Dr. Fleming. But we ask that, in the future, you be a 
little more passionate about the things you believe in.
    Mr. Southerland. Well, that is----
    Dr. Fleming. The Chair now recognizes the gentleman, Mr. 
Sablan, for 5 minutes.
    Mr. Sablan. Thank you, Mr. Chairman. The amendment, Mr. 
Kostyack, you are the lawyer, so I have to go to you. I am not 
blaming you for being a lawyer, I am just holding you 
accountable for being----
    Mr. Kostyack. I am a recovering lawyer, I should say.
    Mr. Sablan. So, if someone is driving a car and causes an 
accident and kills someone, they can be charged with 
manslaughter, despite not knowingly setting out to kill that 
person. And so that is why we have laws, traffic laws, right? 
And regulations. Isn't the Lacey Act the equivalent of traffic 
laws, in a sense?
    Mr. Kostyack. Yes, it right now is what is known as a 
strict liability statute, which is it does not require 
knowledge of a violation of the law. It doesn't require 
knowledge of the chain reaction effect that, if you sell this 
pet, and the pet owner might accidently release the animal or 
intentionally release the animal, that it could end up causing 
millions of dollars of damage all across our economy and 
destroying our environment. That is the effect, but we don't 
expect people to know all those facts before we enforce the 
law. And we don't expect a prosecutor to have the ability to 
prove what is in somebody's mind, those complex facts. That is 
the way our laws operate.
    And, let's face it, if we didn't have it that way, if we 
didn't have strict liability statutes, we would not have been 
able to enforce a large part of the laws that regulate BP and 
its release--massive destruction of the Gulf of Mexico with the 
oil spill 2 years ago.
    Mr. Sablan. Right.
    Mr. Kostyack. Those are strict liability statutes that has 
enabled the Federal Government to hold BP accountable. And so, 
turning it around here and creating this impossible burden of 
proof is essentially saying, ``We don't care about the Lacey 
Act; we don't expect it to be enforced.''
    Mr. Sablan. Ms. Sutherland, good morning. Please, I don't 
want to interfere in how you run your business. We all need to 
earn a living. And I commend you for your business, unlike some 
of us who are in Congress. I will leave it there.
    But let me just give one example. I was at home and I found 
out that Twinkies are going to stop being sold, Twinkies. I 
mean the last time I had Twinkies was when I was in basic 
training and they actually told me to stop eating the stuff, 
because I was overweight.
    [Laughter.]
    Mr. Sablan. But that doesn't mean that store owners now are 
going to go broke because Twinkies are being stopped, right? I 
mean we are talking here about nine species. I mean actually, 
now, it is only five. You can adapt to change, I mean other 
businesses can adapt to change. That is what businesses do, 
right? Otherwise, there is no reason for anyone to be in 
business. You are not telling me that the only things you sell 
are these five species, actually. Are you?
    Ms. Sutherland. No, I am not saying that. We do have an 
ancillary business. We breed rodents.
    Mr. Sablan. Yes.
    Ms. Sutherland. I supply one of the largest breeders of 
boas in my State with rodents for his boas. That amounts to 
approximately $52,000 a year. And that helps pay for my 
employees that work in the rodent room.
    And so, yes, it is true that businesses do learn to adapt. 
However, there are other circumstances other than, ``Well, you 
can just change a snake.'' No. I have to change out all the 
caging, and then I have to find a buyer for that caging. And 
there are limits.
    One of the things that goes along with this that hasn't 
been raised is boa constrictors and reticulated pythons are 
owned by--I mean boas more than the pythons--are owned by 
thousands of private citizens across the United States. If they 
are added to the Lacey Act, they will unknowingly break the 
Lacey Act by moving from one State to another, because the 
general public does not follow all the minute rules and 
regulations that are enacted every year.
    Mr. Sablan. I have to reclaim; my time is out. Thank you. I 
really appreciate your response.
    Mr. Jenkins, you see, where I come from we advertise on TV 
and in the paper, ``If you see a snake, kill it. Then report 
it.'' So kill it first and ask questions later.
    But, Mr. Jenkins, many of the witnesses have talked about 
this being only a problem in South Florida. However, insular 
areas like where I am from, the Territories, my home area, we 
are both warm enough to support these snakes and are 
particularly vulnerable to invasive species. Some of these 
snakes have already been found in the wild in Puerto Rico. Can 
you address the potential threat of these snakes to U.S. 
Territories?
    Mr. Jenkins. Absolutely. And it just seems as if a lot of 
the discussion from Mr. Heflick, Dr. Barr, some of the 
discussion has been this idea that the snakes are going to 
crawl northward in Florida and invade the rest of the country.
    Well, that is not how it is going to happen. We know--and 
there is an excellent report from the Humane Society that is in 
the record--that there are hundreds and hundreds of reports of 
releases around the country where these owners have the snakes, 
they let them go or they escape--we don't know exactly how the 
snakes get out--but it is in the media. We know there are 
hundreds of cases in 45 States and the Island Territories 
around the country. So snakes aren't going to crawl to South 
Texas or to the Territories.
    Mr. Sablan. And I agree----
    Mr. Jenkins. They are going to get released there.
    Mr. Sablan. And just because Mr. Heflick has never heard of 
a case, doesn't mean that it doesn't exist. Just because he 
hasn't seen anyone----
    Mr. Jenkins. It is documented.
    Mr. Sablan [continuing]. Run a red light doesn't mean that 
somebody hasn't done it today is all I am saying.
    Thank you very much, Mr. Chairman. My time is up.
    Dr. Fleming. The gentleman yields his time back. Well, 
let's see. We would like to maybe ask a few more questions. So 
thank you, again, for your patience. I now yield myself 5 
minutes.
    Mr. Heflick, now, there has been a lot of discussion about 
a lot of people killed, injured. We heard children constricted 
in their cribs and all of this as a result of constrictors that 
may have been brought into this country. With regard to 
constrictors in the wild, which is really what we are talking 
about here in the Everglades, how many humans have been killed, 
as a result of that?
    Mr. Heflick. In the approximate two decades that the 
Burmese Pythons have been in the wilds of South Florida, the 
cumulative numbers of humans killed, attacked, is zero.
    Dr. Fleming. OK. Would it surprise you to know that there 
are over 200,000 Americans who were taken to the emergency room 
each year as a result of injuries, and even death, from dogs?
    Mr. Heflick. It wouldn't surprise me. And there are also 
additionally 30,000 that require plastic surgery. Most of those 
are in the age range between 4 years and 9 years of age.
    Dr. Fleming. So if you were to compare constrictors versus 
dogs, which would you consider to be more injurious?
    Mr. Heflick. I have worked with both. And I have sustained 
major injuries from Man's Best Friend and minor scrapes and 
scratches from the wild pythons that I have encountered around 
the world.
    Dr. Fleming. Right. So let me see if I can summarize a 
little information here. We understand that these imported 
constrictors, they are ectothermal, which means that they 
cannot survive in cold weather. As far as we know, they are 
completely encapsulated into the Everglades. Regardless of 
where they may have been released, they only survive in the 
Everglades.
    Florida has, apparently, a very robust system, not only of 
preventing them getting into the wild, but certainly an amnesty 
program that I think is very fair, that you can give them up 
without any concern about repercussions. And so, Florida is 
handling a Florida problem that only exists in Florida. Do you 
see any problem with that, sir?
    Mr. Heflick. No, I think that this is very much so a State 
issue. And Florida, which happens to be the epicenter for this, 
is handling it. They have gone above and beyond. And, 
ultimately, this talk about constrictors and invasives invading 
the rest of the country, whether released, escaped 
accidentally, or taking their time to slither north, is, in my 
biological opinion, absurd.
    Dr. Fleming. So you see no reason to pass a Federal law 
that would apply to 50 States and Territories for a problem 
that is not only limited just to Florida, but to a very small 
area of Florida?
    Mr. Heflick. That is correct.
    Dr. Fleming. OK. Thank you for that. Shifting topics a 
little bit, we heard--I think it was--Mr. Jenkins testify that 
boa constrictors are an invasive species to Puerto Rico. But 
our information is that they are native to Puerto Rico, certain 
species are, and they are listed on the endangered species 
list. Mr. Wyatt, do you have any information on this?
    Mr. Wyatt. There are insular boas that are native to Puerto 
Rico. They are different from a boa constrictor, which we are 
talking about here. And so, because it is so far south, I do 
believe that they would probably be able to survive in Puerto 
Rico, if they were introduced there and established themselves. 
But I would guess that Puerto Rico and other insular 
Territories of the United States, as well as any State, can 
pass laws to restrict those animals in that State where they 
may be a threat.
    Dr. Fleming. So Puerto Rico could do the same thing Florida 
has done.
    Mr. Wyatt. Absolutely.
    Dr. Fleming. OK. And just in the small amount of time I 
have left, just a general comment, and that is the framers of 
the Constitution created our government in which the powers and 
the rights of the Federal Government would be circumscribed, 
would be limited, and that all other powers would go to the 
States.
    And again, I see this as a very, very limited geographical 
problem within a State that is very capable of handling the 
problem. And I think it simply goes against the traditions, 
much less the laws and the Constitution of the United States, 
to create such an overreach in law that really affects only a 
small part of this Nation.
    And with that, I yield back and I recognize the gentleman 
from Florida for any questions he has.
    Mr. Southerland. Thank you, Mr. Chairman. You know, one of 
the things that seems--in trying to solve, I guess, perceived 
problems, so often times the Federal Government just creates 
bigger problems. It is really amazing to me, coming from a 
business background. And yet, we continue to appropriate more 
money for the incompetence of creating more problems.
    I am just curious. One of the unintended consequences--and 
it is just common sense, I am a common sense kind of guy, it 
has served me well--is that if this bill becomes law, you are 
going to have individuals in a transit society that we live in 
now--my goodness, people are transferred, you have military 
bases, I mean we move a lot.
    And so, it seems to me that you would be further 
exasperating the problem of people saying, ``OK, I have now 
been relocated and transferred, and I have this snake.'' So 
because it has very little value, you can't sell it--Ms. 
Sutherland can't afford to buy it because she is fighting for 
her very life, I mean it is worthless, as far as a marketable 
value, so that we are just going to dump it. It seems to me 
that is an unintended consequence of this bill. And now we have 
further exasperated the problem by increasing our numbers of 
snakes that--and I am just curious, Mr. Heflick.
    Am I right? I mean you seem like a common sense kind of 
guy. I would love to spend a Saturday with you. Is that a 
fair----
    Mr. Heflick. Yes. I dual-majored in common sense, too, so 
that is why. But you are exactly right. And the addition of the 
Burmese Python, which has already happened, has done exactly 
that. It has trapped all of the existing Burmese Pythons in the 
one State where they present a problem, in South Florida.
    So, you are exactly right. By making this a Lacey Act 
listing, you trap all of these animals in those States. You 
decrease their marketable value. You actually make them have a 
negative value, because you still have to feed them, you have 
to maintain them, you have to take care of them--man hours. You 
know, as a business owner, how that works.
    Mr. Southerland. Yes.
    Mr. Heflick. So, that is exactly what it has done. And 
through personal comments with biologists in the State of 
Florida that work for the State of Florida on this project, 
they feel the same way. And it has overreached, and it is 
causing problems in the States that they are better suited to 
handle themselves, if left alone. So you are exactly correct.
    Mr. Southerland. Dr. Barr?
    Dr. Barr. Yes, I would agree with that. It is perpetuating 
the problem, not solving it. I think Hawaii, which is a 
subtropical area, has some of the most stringent, exotic animal 
laws in existence. And that is how they have chosen to deal 
with their problem. And I think that it is working.
    Mr. Southerland. Mr. Wyatt? And you are----
    Mr. Wyatt. Yes, sir. Back to your point of unintended 
consequences, there are other unintended consequences, aside 
from that. And you brought up the military and transient 
society.
    This is the first time ever that the government has sought 
to list animals so widely held by the American public. And like 
Ms. Sutherland said, not everybody out there is aware of what 
is going on with all this stuff. We pay close attention because 
we have business interests here. But your average owner--take 
for instance--say someone who is deployed to Afghanistan. He 
comes back from his deployment, he is stationed in California. 
And they get transferred to North Carolina, OK? He and his wife 
pack up and they have a pet boa constrictor and they cross all 
these State lines to get over to North Carolina. He has just 
unknowingly become a Lacey Act felon numerous times over, 
subject to thousands of dollars in fines and prison time. And 
this is a situation that could be repeated over and over and 
over again.
    And it is just--it is unconscionable that such an action 
would be taken, and put all these private citizens at risk 
because they had a boa constrictor as a pet.
    Mr. Southerland. You know, I find it must be difficult for 
a situation like you just described, for a soldier to--it seems 
like it would be kind of anti-soldier--that you have a soldier 
now that has a flag on his arm and he is going to serve, and 
now he is in violation of the law because of the knowingly part 
of this bill.
    So, look. You have hit it on the head. So I yield back my 
time, Mr. Chairman.
    Dr. Fleming. OK, very good. I thank the gentleman and 
panel. We may have some additional questions, but we will 
submit those in writing and certainly will ask the Subcommittee 
members to do that. The hearing record will be open for 10 days 
to receive these responses that you may provide to those 
questions.
    In addition, I also want to submit for the record a 
statement from the American Bird Conservancy, an economic study 
from the Georgetown Economic Services, a number of emails I 
have received in opposition to H.R. 511, and 3 scientific 
studies which have conclusively demonstrated that these 
constrictor snakes cannot--let me repeat, cannot--survive 
outside of South Florida.
    Without objection, so ordered.
    [NOTE: The information submitted for the record by Dr. 
Fleming has been retained in the Committee's official files.]
    Dr. Fleming. I want to thank Members and staff for their 
contributions to this hearing. Before adjourning I would like 
to wish a happy birthday to one of our committee staff, Ms. 
Bonnie Bruce. And you are welcome to volunteer your age----
    [Laughter.]
    Dr. Fleming [continuing]. Oh, without objection--who has 
served with us with distinction for the past 18 years. And we 
thank you for your service, Bonnie.
    If there is no further business, without objection, the 
Subcommittee stands adjourned.
    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [The prepared statement of Mr. Pierluisi follows:]

      Statement of The Honorable Pedro R. Pierluisi, the Resident 
               Commissioner in Congress from Puerto Rico

    Good morning. Thank you Mr. Chairman and Ranking Member Sablan for 
convening this hearing. As a member of the Judiciary Committee, I am 
familiar with this legislation as the Committee voted in February to 
favorably report it to the full House. As a cosponsor, I hope that this 
Committee will now follow suit, so that the biodiversity and natural 
ecosystems in South Florida; my district, Puerto Rico; and the other 
areas of the United States that are vulnerable to invasion by 
constrictor snakes are adequately protected.
    This bill would add nine species of giant constrictor snakes to the 
list of animals currently prohibited from importation and interstate 
shipment in the United States, including Puerto Rico. Of these nine 
species, five have already appeared in the wild in Puerto Rico.
    The Puerto Rico Department of Natural and Environmental Resources 
reports that Burmese pythons, reticulated pythons, African rock 
pythons, yellow anacondas, and boa constrictors have been collected in 
municipalities throughout Puerto Rico, and that boa constrictors have 
even begun to breed on the Island. While the U.S. Fish and Wildlife 
Service has already prohibited the importation and interstate movement 
of three of these fives species through the rule making process, the 
remaining two species are not prohibited by either rule or statute.
    Why is this important? There are eight endangered bird species and 
eight endangered reptile species native to Puerto Rico, including the 
Puerto Rican parrot and coqui frog, that are directly threatened by the 
presence in Puerto Rico of large constrictor snakes. The federal 
government and the government of Puerto Rico are partners in recovering 
endangered Puerto Rican parrots in El Yunque National Forest and the 
Rio Abajo Forest, and have spent close to $20 million over the past 
decade on this partnership. These snakes pose a direct threat to this 
investment.
    As a tropical island, Puerto Rico is particularly susceptible to 
biological invasions, especially by highly adaptive generalist 
predators like constrictor snakes, which pose a threat to the 
environment, economy, and public safety. We have already witnessed the 
consequences of inaction at the federal level in Florida, and we must 
take affirmative steps to mitigate the risks there and in other 
vulnerable areas.
    Therefore, I look forward to hearing from our witnesses today about 
how this bill would protect Puerto Rico in particular, and apart from 
the bill about what other actions government can take at the federal, 
state and local levels to prevent large constrictor snakes from 
becoming established in the wild in Puerto Rico and other vulnerable 
jurisdictions.
                                 ______
                                 
    [The prepared statement of Mr. Rooney follows:]

   Statement of The Honorable Thomas J. Rooney, a Representative in 
                   Congress from the State of Florida

    Chairman Fleming, Ranking Member Sablan, and members of the 
Subcommittee, thank you for your consideration of H.R. 511, my bill to 
prohibit further importation and inter-state transport of nine 
constrictor snakes widely considered to be invasive species. This 
legislation would amend the list of injurious species under the Lacey 
Act to include the Indian python, reticulated python, Northern African 
python, Southern African python, boa constrictor, green anaconda, 
yellow anaconda, DeSchauensee's anaconda, and the Beni Anaconda.
    The negative consequences of non-native, invasive species are far 
reaching to say the least. As a Florida native, I have seen firsthand 
the damages invasive plants and animals cause. Exotic, invasive species 
have taken an aggressive hold in South Florida, and continue to spread 
at an alarming rate. The most recent and arguably dangerous example of 
a non-native predator establishing a thriving, breeding population is 
the Burmese Python found in the Florida Everglades.
    A combination of climate and geographical factors distinguish the 
Everglades as the only subtropical wilderness that exists in the United 
States. This area is home to a truly unique variety of wildlife, many 
of which are considered threatened or endangered. Unfortunately, this 
ecosystem is also uniquely hospitable to foreign invaders like the 
Burmese Python. These snakes thrive on the subtropical climate and 
abundant food resources so readily available in this region. In 2001, 
there were roughly 200 Burmese Pythons observed in the Everglades. It 
is now estimated that there are over 100,000 pythons who call the 
Everglades home.
    Burmese pythons are native to Southeast Asia. I am not a scientist, 
but if I could make an educated guess I would say that they did not 
migrate here of their own free will. According to a fact sheet 
published by the National Park Service, Burmese pythons were likely 
released into the Everglades by pet owners. These snakes can grow more 
than 5 feet in their first year of life, a size requiring substantial 
quantities of live mice and even rabbits to maintain. When full grown, 
they can reach 20 feet in length and weigh over 200 pounds. It's no 
wonder well-intentioned pet owners can't take care of them.
    Many individuals fail to recognize these snakes for what they 
really are: wild animals. Experienced reptile handlers and average 
individuals alike have been attacked by constrictor snakes. Even worse, 
the number of people who have been seriously injured in these attacks 
is startling. Florida made national news three years ago when a 2-year-
old girl was tragically killed by a Burmese python. The snake escaped 
from an enclosure in the home and strangled the innocent child in her 
sleep. Constrictor snakes are dangerous predators, not domesticated 
pets.
    The threat invasive, exotic snakes pose to human safety is 
obviously paramount. However, it is also worth noting the ecologic and 
economic damages associated with this species. The State of Florida, in 
conjunction with the federal government, has spent billions of tax 
dollars on the restoration the Everglades. A March 2010 research paper 
reported that 25 different bird species, including the endangered wood 
stork, had been found in the digestive tracts of pythons in Everglades 
National Park. It seems entirely counterintuitive to allocate federal 
dollars for the protection of imperiled species while still allowing 
injurious species to prey on these endangered animals.
    The economic damages associated with nonnative invasive species 
amount to an estimated $120 billion per year in the United States. That 
cost is shared by tax payers nationwide. The South Florida Water 
Management District, State of Florida, the U.S. Fish and Wildlife 
Service and the Everglades National Park have already dedicated 
valuable time and resources towards eradicating the Burmese python. If 
additional invasive snakes are allowed to establish themselves, our 
environment and our citizens will be harmed, and tax payers will foot 
the bill.
    The threat of further introduction and establishment of nonnative 
species only increases the longer we wait to address this problem. By 
listing these nine species of pythons and boas we can begin to tackle 
the problem from its source. While H.R. 511 is not the silver bullet to 
ending the problem in South Florida, it is a vital step towards 
reaching that goal. We must stop the further introduction of these 
snakes, while we continue working to eradicate them from the 
Everglades.
                                 ______
                                 
    [A letter submitted for the record by Timm Kroeger, Ph.D., Senior 
Environmental Economist, The Nature Conservancy, follows:]
The Nature Conservancy
December 12, 2011
Mr. Cass Sunstein, Administrator
Office of Information and Regulatory Affairs
Office of Management and Budget, Executive Office of the President
Eisenhower Executive Office Building
1650 Pennsylvania Ave, NW, Room 262
Washington, DC 20503
Re:  U.S. Fish and Wildlife Service Large Constrictor Snake Proposed 
        Rule, RIN 1018-AV68
Dear Mr. Sunstein:
    I am writing on behalf of The Nature Conservancy to provide 
comments on the U.S. Fish and Wildlife Service Large Constrictor Snake 
Proposed Rule, RIN 1018-AV68 and, specifically, on the economic 
analysis of that rule provided by the U.S. Association of Reptile 
Keepers.
    In this letter we point out several serious flaws in the economic 
analysis of the proposed listing of nine constrictor species as 
injurious wildlife,\1\ commissioned by the U.S. Association of Reptile 
Keepers (USARK).\2\ Specifically, the USARK-commissioned study:
---------------------------------------------------------------------------
    \1\ Fish and Wildlife Service. 2010. Injurious Wildlife Species: 
Listing the Boa Constrictor, Four Python Species, and Four Anaconda 
Species as Injurious Reptiles. Federal Register: July 1, 2010 (Volume 
75, Number 126, pp. 38069-38070).
    \2\ Collis, A.H., and R.N. Fenili. 2011. The Modern U.S. Reptile 
Industry. Report for USARK by Georgetown Economic Services. 74 pp. 
Online at: www.whitehouse.gov/omb/1018_meeting_04182011 (last accessed 
December, 2 2011).
---------------------------------------------------------------------------
        (1)  Ignores likely substitution effects on the part of both 
        the reptile industry and reptile owners, which leads to a 
        likely large upward bias in the resulting estimates of negative 
        economic impacts from the proposed rule.
        (2)  Focuses only on the negative impacts on one small segment 
        of the reptile industry (that is, breeders and importers of 
        these nine large constrictor snakes) and snake owners that may 
        result from the implementation of the proposed rule, while 
        completely ignoring the positive impacts the rule would have in 
        terms of benefits for native wildlife, including threatened and 
        endangered species, avoided control and eradication 
        expenditures by government agencies, and human safety. Such a 
        one-sided analysis cannot inform sensible public policy, which 
        should consider both the costs and benefits of a regulation.
        (3)  Uses an inappropriate discount rate that by itself leads 
        to a substantial (close to 20 percent) overstating of the 
        projected future costs of the rule. This, together with the 
        unreasonable expectation that no substitution effects will 
        occur on the industry or consumer side, introduces a further 
        upward bias in the study's cost estimates that makes the latter 
        even more doubtful.
        (4)  Incorrectly applies the term ``economic losses'' when 
        referring to what in fact are reductions in revenues for this 
        small segment of the reptile industry. This is not merely a 
        problem of semantics that is likely to mislead many readers of 
        the report. Rather, economic losses--or net reductions in 
        business assets--from reduced sales are always smaller than 
        revenue reductions. By basing its analysis on revenues rather 
        than losses expected to result from the proposed rule but 
        referring to those revenue reductions as losses, the report 
        overstates the actual losses industry may suffer as a result of 
        the rule. This, combined with the likely dramatic 
        overestimation of those expected revenue reductions for the 
        reasons listed in comments (1) and (3) above, further 
        exaggerates any negative impact the rule might have on the 
        reptile industry.
    In what follows, we discuss some of these issues in more detail.
Estimates of lost sales are based on the assumption that there would be 
        no substitution effects.
    In fact, however, two types of substitution effects are likely to 
occur. First, on the demand side, a portion of potential purchasers of 
the large constrictors affected by the proposed rule can be expected to 
switch to other reptiles not affected by the ban. Any such substitution 
will reduce the size of the economic impact (i.e., lost sales or 
revenues for breeders and the pet supplies industry) associated with 
the listing of selected large constrictors as injurious wildlife. This 
substitution effect is likely to become more important over time as 
consumers adjust their habits. This means that any initial losses in 
economic benefits from the restrictions based on the targeted species, 
to the extent that such losses occur at all, will be decreasing over 
time. The report completely ignores this substitution effect.
    Second, in states except those that are banning the breeding of the 
affected nine snake species (of which only six are actually traded in 
the United States, as the USARK report points out), losses in 
interstate trade in the species likely would be counteracted through an 
increase in the intra-state production and trade of those species. This 
substitution effect on the supply side likely would fill the supply 
shortage that would result from reduced interstate trade in those 
species. This substitution would counteract any losses in consumer or 
producer surplus that might result from the rule's effect on interstate 
commerce in those species.
    The combined effect of these two substitution effects could offset 
a large portion of the reductions in interstate trade in the affected 
species that might result from the proposed rule. The USARK-
commissioned study, being a steady-state analysis, completely ignores 
these substitution effects and thus is likely to dramatically 
overestimate the reduction in sales that might result from the proposed 
rule. Substitution effects are likely to be of increasing importance 
over time as consumers adjust to the new regulations. This will reduce 
the impact on annual sales of the affected species that the proposed 
regulation may have. Thus, the USARK-commissioned study is likely to 
overestimate future revenue losses even more than it does losses in the 
first year after the rule goes into effect.
Use of an inappropriate discount rate inflates expected future costs
    The report uses the prime bank loan rate as the discount rate 
applied to projected foregone future revenues from the nine large 
constrictor species that would be affected by the proposed legislation. 
However, the prime loan rate is a reference interest rate used by 
banks. It is not the appropriate rate to use for discounting future 
earnings. The correct rate to use is the average rate of return that 
the foregone profits could have and would have achieved. The historic 
average rate of return in the United States--approximately 7 percent--
commonly is the rate used in such analyses, and is the default discount 
rate that the Office of Management and Budget requires federal agencies 
to use in benefit-cost analyses.\3\ Using that rate instead of the 
3.25% rate used in the report alone reduces projected lost revenues as 
a result of the proposed rule by 17%.
---------------------------------------------------------------------------
    \3\ Office of Management and Budget, 2003, Circular A-4--Regulatory 
Analysis, Sep. 17, 2003. http://www.whitehouse.gov/sites/default/files/
omb/assets/regulatory_matters_pdf/a-4.pdf.
---------------------------------------------------------------------------
The report is one-sided because it ignores the economic benefits of the 
        proposed rule
    The USARK-funded study provides an (highly upward-biased) estimate 
of the market activity-related cost (i.e., lost revenues) that it 
expects to result from the proposed rule. Such an estimate is 
meaningless from an economic perspective without an estimate of the 
benefits the rule would bring about. These benefits consist of avoided 
control and eradication costs and avoided damages that would result 
from the proposed rule.
    Furthermore, from an economic, cost-benefit perspective, the 
preferable, more comprehensive measure of the economic effect of the 
rule would focus on the net welfare effect from the rule, as measured 
in the form of changes in consumer and producer surplus. Such an 
analysis also would require the consideration of how much the proposed 
rule could be expected to reduce population losses and extinction risks 
for threatened and endangered species, as avoided population losses and 
extinction events carry real economic value.\4\ Evidence in the Florida 
Everglades indicates that accidentally or intentionally released large 
constrictors and other invasive reptiles negatively affect several T&E 
species. Such negative impacts carry an economic cost.
---------------------------------------------------------------------------
    \4\ For the U.S. alone, more than two dozen studies estimate the 
economic value of avoided losses in T&E species populations. For an 
overview, see Richardson, L. and J. Loomis, 2009, ``The total economic 
value of threatened, endangered and rare species: An updated meta-
analysis'', Ecological Economics 68:1535-1548.
---------------------------------------------------------------------------
Incorrect and misleading use of terminology
    The authors frequently use the term ``economic losses'' when in 
fact they are referring to reductions in sales. The use of the term 
``economic loss'' in this sense is incorrect, as the actual economic 
loss associated with any reduced sales is only the foregone producer 
surplus (gross revenues minus production costs), not the foregone 
revenue (i.e., gross sales value). Like any production, the production 
of large constrictors requires inputs and carries associated costs. If 
production ceases, so do the associated expenditures on inputs. Thus, 
the terminology used in the study is misleading as it exaggerates the 
actual size of the losses in the industry that may result from the 
proposed rule.
    Thank you for considering our comments.
Respectfully,

Timm Kroeger, Ph.D.
Senior Environmental Economist
Sustainability Science
Central Science
                                 ______
                                 

               Statement submitted for the record by the 
                     U.S. Fish and Wildlife Service

    The U.S. Fish and Wildlife Service (Service) appreciates this 
opportunity to submit a statement for the record on H.R. 511, a bill to 
prohibit the importation of several species of constrictor snakes. In 
general, the bill amends the injurious wildlife provisions of the Lacey 
Act at 18 U.S.C. 42(a) to add nine species of non-native, constrictor 
snakes to the list of ``injurious wildlife'' regulated under this 
title. With this designation, the importation and interstate transport 
of these snake species would be prohibited without a permit from the 
Department of the Interior. H.R. 511 was introduced on January 26, 
2012, and referred to the House Judiciary Committee, which reported it 
with an amendment on February 28, 2012. The Service supports the bill 
as introduced, but cannot support the bill as amended by the House 
Judiciary Committee.
Background
    The Lacey Act is among the nation's oldest and most effective 
conservation laws. It has proven to be a powerful tool for the 
conservation of sustainable, native wildlife populations from 
overharvest and from threats posed by invasive species. Along with a 
core of other key statutes, like the Plant Protection Act, the 
injurious wildlife prohibitions in title 18 of the United States Code 
protect domestic interests against the spread of invasive species, 
including foreign invasive species known to occupy habitats in the 
United States that are similar to those in which they live in their 
home ranges and that could outcompete or prey upon native fish and 
wildlife, cause damages to our economic interests, or cause or carry 
disease.
    In 2008, the Service published a notice of inquiry in the Federal 
Register, soliciting available biological, economic, and other 
information and data on the Python, Boa and Eunectes genera of 
constrictor snakes for possible addition to the list of ``injurious 
wildlife.'' This notice of inquiry was prompted by a petition from the 
South Florida Water Management District to the Service requesting the 
addition of Burmese pythons to this list.
    Subsequently, the U.S. Geological Survey (USGS) published a peer-
reviewed report, Giant constrictors: Biological and management profiles 
and an establishment risk assessment for nine large species of Pythons, 
Anacondas, and the Boa Constrictor, which identified the nine 
constrictor snake species included in H.R. 511 as posing a risk of 
becoming established in the United States. In 2010, the Service 
published a proposed rule to list all nine species. In 2011, USGS 
published a clarification on the modeling used for the 2009 report. 
Finally, in January 2012 the Service published a final rule to list 
four of the nine species, including Python molurus (which includes 
Burmese python Python molurus bivittatus and Indian python Python 
molurus molurus), Northern African python Python sebae, Southern 
African python Python natalensis, and yellow anaconda Eunectes notaeus 
on the list of injurious reptiles.
    The immediate listing of these four species was found to be 
warranted because all determined to have a ``high risk'' for 
establishment in the wild and for causing damaging impacts to wildlife 
resources. The final rule became effective on March 23, 2012. The 
Service continues review of the remaining five species of constrictor 
snakes that were included in the 2010 proposed rule but that have not 
been listed to date.
H.R. 511 Judiciary Committee Amendment
    In its amendment to H.R. 511, the House Judiciary Committee 
retained language in the original bill text adding all nine species to 
the list of ``injurious wildlife'' in 18 U.S.C. 42(a), but changed the 
text of the underlying statute in a way that would considerably alter 
the liability standard for violations of certain prohibited acts in 
this statute that are Class B misdemeanor offenses. The amendment also 
exempts from the prohibitions in 18 U.S.C. 42(a) the importation and 
interstate transport of all nine species of large constrictor snakes by 
state fish and wildlife agencies or ``exhibitors,'' as defined in 
section 80.1 of title 50, Code of Federal Regulations.
    Under the current statute, prosecution of violations occurs through 
a ``strict liability'' standard, meaning it may be based on evidence of 
the violation without establishing proof of the violator's intent or 
prior knowledge about the law or the presence of the injurious species 
in a given imported or transported shipment. The amendment changes this 
standard to an intent-based standard with respect to the importation of 
all injurious animals and plants, meaning prosecution must be based, in 
part, on proof of what the violator knew when he committed the 
prohibited act. Given the nature of shipments or other human-directed 
movement of fish and wildlife into the U.S. and across state borders, 
H.R. 511, if adopted by Congress in its current form, would require a 
heightened standard of proof before prosecution could occur, 
significantly weakening our ability to use this statute to prevent or 
inhibit the spread of such species and the harm they cause.
    For example, the statute applies to a wide variety of animals such 
as mollusks, mussels, and crustacea that may be brought into the United 
States in ballast water or on the outside of ships. As explained 
further below, the introduction of these injurious animals has caused 
enormous economic and environmental harm in this country. While ship 
owners and operators are warned through posted signs and notices of 
their responsibility to appropriately dispose of ballast water and 
clean their ships to prevent the spread of injurious species, under the 
statute as amended U.S. prosecutors would be required to prove that 
they knowingly imported these injurious animals into U.S. waters in 
order to prosecute them for violations of this statute, an almost 
insurmountable burden of proof under the circumstances. Thus, changing 
the prohibition in the statute from a strict liability offense to a 
knowing offense would remove the incentive for shippers to take 
appropriate steps to ensure that they do not introduce injurious 
animals into the United States.
    Furthermore, wildlife shipments can contain more than one species, 
and they may include individuals representing species listed as 
``injurious wildlife'' among other, more benign species. Injurious 
species may also be transported into the United States or across state 
lines as ``hitchhikers.'' Also, this statute's prohibitions against 
importation and transport of ``injurious wildlife'' involve, in many 
cases, specific species, but shipments may be labeled at a higher level 
of taxonomy. Species in these groups may look much alike. Importers may 
work with foreign partners who have no accountability to domestic law. 
Importers may or may not fully understand the content of their 
shipments in such cases. Such a shipment may include injurious species 
with or without the knowledge of the importer, who may or may not know 
such prohibitions exist. Under current law, Service enforcement agents 
may stop and detain suspected shipments, and when appropriate, pursue 
prosecution for the party who is accountable to U.S. law, with the goal 
of preventing the damage that these species cause. The mere prospect of 
prosecution on the basis of the presence or absence of the prohibited 
species in transport encourages knowledge of and compliance with the 
law. The risk of spread of injurious species into the United States is, 
therefore, reduced by the diligence of the importer or transporter that 
is subject to the law.
    The economic and environmental damage injurious wildlife and other 
foreign, invasive species can cause to United States interests when 
those species spread into supportive habitats is well-known. Species 
listed as ``injurious wildlife'' in many cases have already proven to 
be harmful, incurring considerable costs to reverse or control the 
damages they cause and to control their numbers in the wild. These 
costs are ultimately borne by our nation's businesses, consumers, and 
taxpayers when these species impact commercially valuable fisheries, 
water and power utility infrastructure, environmental quality and 
environmental restoration efforts, agricultural interests, and human 
health, among other things.
    While precise estimates of annual costs are difficult to establish, 
the most widely referenced paper on this issue (Pimental et al. 2000) 
reports the cost of invasive species, which would include injurious 
wildlife, at $120 billion per year.\1\ In 2011 alone, the National 
Invasive Species Council estimates that Federal agencies spent over $2 
billion on activities focused on preventing, minimizing, or reversing 
the damages caused by invasive species, with more than half of that 
amount dedicated to prevention, rapid response, and control of such 
species and their impacts.\2\ The risk of increasing these costs to our 
Nation's interests with new introductions or human-facilitated spread 
is high, even when just a few individuals from species on this list are 
released or accidentally escape captivity. The risk of escape or 
release of these species is particularly high during transport, and 
many of the species in the ``injurious wildlife'' list can reproduce 
and spread rapidly under suitable conditions.
---------------------------------------------------------------------------
    \1\ Pimentel, D., L. Lach, R. Zuniga, and D. Morrison. 2000. 
``Environmental and Economic Costs of Nonindigenous Species in the 
United States.'' Bioscience, 50(1): 53-56.
    \2\ National Invasive Species Council. November 1, 2012. Invasive 
Species Interagency Crosscut Budget.
---------------------------------------------------------------------------
    The transport of zebra mussels (Dreissena polymorpha) on 
recreational or commercial boats across state lines or our 
international borders often occurs without knowledge of the transporter 
about the law prohibiting this or the presence of the mussels. In fact, 
the introduction of zebra mussels into the United States was through 
ballast water discharge of ships sailing from Europe into the Great 
Lakes. This unknowing and unintentional introduction has cost the 
United States billions of dollars in damages and in control efforts. 
The threat continues to move west. Invasive, fresh water mussels, 
including zebra mussels, transported across state lines threaten the 
hydroelectric infrastructure in western states. These mussels are 
poised to invade the Columbia River, and the cost to hydroelectric 
infrastructure alone could be between $250 to $300 million annually.\3\
---------------------------------------------------------------------------
    \3\ IEAB. 2010. Economic Risk Associated with the Potential 
Establishment of Zebra and Quagga Mussels in the Columbia River Basin. 
NW Council, Independent Economic Analysis Board, Task Number 159, 
Document IEAB 2010-1, July 14, 2010. Available: http://
www.nwcouncil.org/library/ieab/ieab2010-1.pdf (Accessed Nov. 23, 2012).
---------------------------------------------------------------------------
    Under the ``strict liability'' standard of current law, the 
Service's Office of Law Enforcement and the Department of Justice take 
into consideration mitigating and aggravating circumstances when 
deciding whether to file formal charges, issue a violation notice, or 
simply seize a shipment. There is a significant amount of discretion 
applied on a case-by-case basis, maximizing the protective purposes of 
the statute without unduly hindering commerce or otherwise lawful 
activities of U.S. citizens. The cost of this prevention tool is a 
small fraction of the cost to control or reverse the damage of these 
species when they are able to establish wild populations in the United 
States.
    The exemption provided in the amendment for the importation and 
interstate transport of the relevant species of large, constrictor 
snakes, from a practical point of view, would challenge the enforcement 
of the prohibition in such a way as to significantly reduce or 
eliminate its effectiveness in preventing the introduction or spread of 
these species in wild habitats in the United States.
    The Service cannot support H.R. 511 as amended by the House 
Judiciary Committee. The Service believes that the current ``strict 
liability'' standard for prosecution is necessary to achieve the 
protective purposes of this statute to manage the risk posed to U.S. 
interests by ``injurious wildlife'' species. We welcome the opportunity 
to work with the Committee to address any concerns about the current 
text or enforcement of this statute.
                                 ______
                                 
    [The information listed below has been retained in the 
Committee's official files.]

        <bullet>  Barker, David G., Article ``Will They Come in 
        out of the Cold? Observations of Large Constrictors in 
        Cool and Cold Conditions''
        <bullet>  Collis, Ariel H. and Robert N. Fenili, 
        Commentary Article, ``Constrictors, Injurious Wildlife 
        Listings, and the Reptile Industry''
        <bullet>  Committee on Oversight and Government Reform 
        staff report, ``Broken Government: How the 
        Administrative State has Broken President Obama's 
        Promise of Regulatory Reform''
        <bullet>  Dorcas, Michael et al., Article in 
        Integrative Zoology 2012, ``Can invasive Burmese 
        pythons inhabit temperate regions of the southeastern 
        United States?''
        <bullet>  Jacobson, Elliott R., et al., Article 
        ``Environmental temperatures, physiology and behavior 
        limit the range expansion of invasive Burmese pythons 
        in southeastern USA''
        <bullet>  Liston, Barbara, Article in Chicago Tribune, 
        ``Are Pythons overrunning the Everglades? Some experts 
        now say no''
        <bullet>  Mazzotti, Frank J., et al., Article ``Cold-
        induced mortality of invasive Burmese pythons in south 
        Florida''
        <bullet>  Schroder, Darin, Vice President of 
        Conservation and Advocacy, American Bird Conservancy, 
        Statement for the record
        <bullet>  United States Association of Reptile Keepers, 
        Petition from 150 residents from State of Washington
        <bullet>  Walthall, Susan M., Acting Chief Counsel, 
        Office of Advocacy, U.S. Small Business Administratoin, 
        Statement for the record

                                 <all>

</pre></body></html>
